NO. ________

IN THE

Supreme Court of the United States
IQBAL S. RANDHAWA,
v.

Petitioner,

BANK OF NEW YORK MELLON, FKA
Bank of New York, Successor to JPMorgan
Chase Bank, NA, as trustee, on behalf of the holders
of the Structured Asset Mortgage Investment II Inc.,
Bear Stearns Alt-A Trust, Mortgage Pass-Through
Certificates, Series 2004-12,
Respondent.

ON PETITION FOR WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

APPENDIX

James J. Falcone
Law Office of James J. Falcone
300 Capitol Mall, Suite 1800
Sacramento, CA 95814
(916) 442-4204
jfalcone@jfalconelaw.com
Counsel of Record for Petitioner
LANTAGNE LEGAL PRINTING
801 East Main Street Suite 100 Richmond, Virginia 23219 (804) 644-0477

TABLE OF CONTENTS

Page

Memorandum Opinion of the United States Court of Appeals
for the Ninth Circuit, filed August 13, 2020 ............................................... A1
Findings and Recommendations of the United States District
Court for the Eastern District of California, filed March 21, 2019 ............ A4
Order of the United States District Court for the Eastern District
of California, filed April 17, 2019 .............................................................. A12
Order on Rehearing of the United States Court of Appeals for the
Ninth Circuit, filed September 29, 2020 ................................................... A14
15 U.S.C.A § 1635 ...................................................................................... A15
First Amended Complaint, filed February 21, 2019 ................................. A19

i

Case: 19-15926, 08/13/2020, ID: 11787496, DktEntry: 27-1, Page 1 of 3

NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS

FILED
AUG 13 2020
MOLLY C. DWYER, CLERK

FOR THE NINTH CIRCUIT
IQBAL S. RANDHAWA,

No.

Plaintiff-Appellant,

U.S. COURT OF APPEALS

19-15926

D.C. No.
2:18-cv-02244-JAM-AC

v.
BANK OF NEW YORK MELLON, FKA
Bank of New York, Successor to JPMorgan
Chase Bank, NA, as trustee, on behalf of the
holders of the Structured Asset Mortgage
Investment II Inc., Bear Stearns Alt-A Trust,
Mortgage Pass-Through Certificates, Series
2004-12,

MEMORANDUM*

Defendant-Appellee.
Appeal from the United States District Court
for the Eastern District of California
John A. Mendez, District Judge, Presiding
Submitted August 4, 2020**
San Francisco, California
Before: THOMAS, Chief Judge, and HAWKINS and McKEOWN, Circuit
Judges.

*

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

A1

Case: 19-15926, 08/13/2020, ID: 11787496, DktEntry: 27-1, Page 2 of 3

Iqbal S. Randhawa appeals the district court’s denial of leave to amend his
Truth in Lending Act (“TILA”) complaint against the Bank of New York Mellon.
We have jurisdiction under 28 U.S.C. § 1291. Reviewing the denial for abuse of
discretion, we affirm.
The district court properly dismissed Randhawa’s suit as time-barred, noting
that the loan in question “was consummated in 2004,” that Randhawa “recorded
the Notice of Rescission in 2005, and the TILA cause of action arose when the
bank failed to take any action to wind up the loan within 20 days of receiving
plaintiff’s notice of rescission.” The statute of limitations on a TILA recission
enforcement claim is borrowed from analogous state contract law, Hoang v. Bank
of Am., N.A., 910 F.3d 1096, 1101 (9th Cir. 2018), in this case four years, Cal. Civ.
Proc. Code § 337, which expired long before Randhawa filed this action.
Randhawa does not challenge this determination, but argues the district court
should have permitted him to amend his TILA complaint to include a quiet title
claim. The statute of limitations for quiet title depends upon the “underlying
theory of relief,” Muktarian v. Barmby, 407 P.2d 659, 661 (Cal. 1965), and as the
district court noted, the same logic that forecloses his TILA claims applies here.
The quiet title claim in Randhawa’s proposed amended complaint is premised on
the alleged fraud that led him to transfer his deed in 2004. In California, the statute
of limitations for fraud is three years, Platt Elec. Supply, Inc. v. EOFF Elec., Inc.,

2

A2

Case: 19-15926, 08/13/2020, ID: 11787496, DktEntry: 27-1, Page 3 of 3

522 F.3d 1049, 1054 (9th Cir. 2008) (citing Cal. Civ. Proc. Code § 338(d)), and
Randhawa’s claim is thus time-barred. The district court did not abuse its
discretion in refusing to grant him leave to amend. See Graham-Sult v. Clainos,
756 F.3d 724, 748 (9th Cir. 2014).
AFFIRMED.

3

A3

Case 2:18-cv-02244-JAM-AC Document 28 Filed 03/21/19 Page 1 of 8
1

2
3
4

5
6
7
8

UNITED STATES DISTRICT COURT

9

FOR THE EASTERN DISTRICT OF CALIFORNIA

10
11

IQBAL S. RANDHAWA,

12
13
14
15

No. 2:18-cv-02244 JAM AC PS

Plaintiff,
FINDINGS AND RECOMMENDATIONS

V.

BANK OF NEW YORK MELLON,
Defendants.

16
17

Plaintiff is proceeding in this matter prose following the withdraw of counsel (ECF No.

18

12), and pre-trial proceedings are accordingly referred to the magistrate judge pursuant to Local

19

Rule 302(c)(21 ). Defendant's motion to dismiss (ECF No. 16) came on for hearing on March 20,

20

2019. ECF No. 27. Because the applicable statute oflimitations bars this case in its entirety,

21

defendant's motion must be GRANTED.

22
23

I.

BACKGROUND

The complaint alleges as follows. Plaintiff owned an encumbered home at 681 Dynasty

24

Drive, Fairfield, California, 95534, where he lived. ECF No. 1 at 2. In 2001, plaintiff became

25

unable to make regular payments on his mortgages, and the property became subject to

26

foreclosure. Id. at 3. On or about July 23, 2004, plaintiff was solicited by Phil Elauria

27

("Elauria") who represented that he was an agent and manager of the Princess Properties &

28

Associates Acquisitions & Holdings, LLC ("Princess Properties"). Id. Elauria said that he and
1

A4

Case 2:18-cv-02244-JAM-AC Document 28 Filed 03/21/19 Page 2 of 8
1

his company had the ability to "save" plaintiff from "losing his home" at the foreclosure sale.

2

Elauria proposed an arrangement in which plaintiff would transfer title to his home to Princess

3

Properties for 60 days, during which plaintiff could remain in the house and get back on his feet

4

financially, after which the company would transfer the property back to plaintiff. Id. In reliance

5

on these representations, plaintiff signed a Grant Deed transferring the title of the property to

6

Princess Properties; this deed was recorded on August 4, 2004. Id. On September 10, 2004,

7

plaintiff signed a Promissory Note for $750,000 in which Princess Properties was the lender and

8

plaintiff and his spouse were borrowers. Id. at 3-4.

9

Plaintiff alleges that he was fraudulently induced to enter the transaction with Princess

10

Properties. Id. at 4. Princess Properties did not disclose that prior to the September 10, 2004

11

transaction, it had already caused Walter J. Aster ("Aster"), owner of Princess Properties'

12

successor "Real Opportunity" to execute two deeds of trust on the Subject Property. Id. Aster

13

acknowledged that he was paid $5,000 by Princess Properties for allowing Princess Properties to

14

use his name and credit to obtain two purchase money mortgages from Sierra Pacific Mortgage

15

Company, predecessor to defendant Bank of New York Mellon ("BONY"), falsely representing

16

that Aster intended to live in the home. Id. On or about January 31, 2005, Real Opportunity and

17

Aster recorded a Grant Deed transferring title to the property from Princess Properties to Real

18

Opportunity, and in early 2005, began demanding plaintiff start making payments to Real

19

Opportunity, attention Walter J. Aster. Id. at 5.

20

Alarmed by the series of events, plaintiff sent a Notice of Rescission pursuant to Civil

21

Code § 1695 and his rights under the Truth in Lending Act to Real Opportunity Investments on or

22

about August 31, 2005. Id. at 6. The Notice of Rescission was recorded at the Solano Country

23

Recorders Office on September 1, 2005. BONY was aware of the Notice of Rescission and made

24

an unsuccessful effort to expunge the Notice in a prior state court case, Real Opportunity

25

Investments LLC v. Randhawa ("ROI v. Randhawa"). Id. In that case, BONY filed a cross-

26

complaint seeking declaratory relief, equitable subrogation, judicial foreclosure, and quiet title.

27

Id. The court granted BONY summary judgment on plaintiffs claims against it, but denied

28

summary judgment to BONY on its cross complaint. Id. at 7. BONY subsequently dismissed its
2

A5

Case 2:18-cv-02244-JAM-AC Document 28 Filed 03/21/19 Page 3 of 8
1

cross-complaint. Id. On or about April 17, 2015, BONY recorded a Trustee's Deed Upon Sale,

2

indicating that it was the new equity purchaser and had acquired ownership and title to the

3

property. Id. On May 18, 2015, BONY served plaintiff with an unlawful detainer to evict him.

4

Id.

5

Plaintiff filed his complaint on August 17, 2018. ECF No. 1. Plaintiff brings two claims:

6

(1) "Rescission under federal law" pursuant to the Truth in Lending Act ("TILA"), and (2)

7

"Violation of 15 U.S.C. § 1635," a provision of TILA. Id. at 7-8. Plaintiff was initially

8

represented by counsel, but counsel's withdrawal was approved on October 17, 2018. ECF No.

9

12. Defendant moved to dismiss on November 30, 2018. ECF No. 16. Plaintiff sought an

10

extension oftime to respond (ECF No. 17) which the court granted (ECF No. 19). Plaintiff filed

11

an opposition to defendant's motion to dismiss, which includes a request to amend his complaint

12

to include a fraud claim. ECF No. 23.

13
14

II.

MOTION TO DISMISS

Defendant seeks to dismiss plaintiff's case with prejudice and without leave to amend

15

pursuant to Fed. R. Civ. P. 12(b)(6) because (1) plaintiff's complaint is barred by the doctrine of

16

res judicata; (2) TILA governs creditors, and defendant was never a creditor as to plaintiff; and

17

(3) plaintiff's claims are time-barred. ECF No. 16-1 at 2.

18

A. Standards under Rule 12(b)(6)

19

"The purpose of a motion to dismiss pursuant to Rule 12(b)(6) is to test the legal

20

sufficiency of the complaint." N. Star Int'l v. Ariz. Corp. Comm'n, 720 F.2d 578, 581 (9th Cir.

21

1983). "Dismissal can be based on the lack of a cognizable legal theory or the absence of

22

sufficient facts alleged under a cognizable legal theory." Balistreri v. Pacifica Police Dep't., 901

23

F.2d 696, 699 (9th Cir. 1990).

24

In order to survive dismissal for failure to state a claim, a complaint must contain more

25

than a "formulaic recitation of the elements of a cause of action;" it must contain factual

26

allegations sufficient to "raise a right to relief above the speculative level." Bell Atlantic Corp. v.

27

Twombly, 550 U.S. 544, 555 (2007). It is insufficient for the pleading to contain a statement of

28

facts that "merely creates a suspicion" that the pleader might have a legally cognizable right of
3

A6

Case 2:18-cv-02244-JAM -AC Document 28 Filed 03/21/19 Page 4 of 8

1

action. Id. (quoting 5 C. Wright & A. Miller, Federal Practice and Procedure§ 1216, pp. 235-35

2

(3d ed. 2004)). Rather, the complaint "must contain sufficient factual matter, accepted as true, to

3

'state a claim to relief that is plausible on its face."' Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009)

4

(quoting Twombly. 550 U.S. at 570). "A claim has facial plausibility when the plaintiff pleads

5

factual content that allows the court to draw the reasonable inference that the defendant is liable

6

for the misconduct alleged." Id.
In reviewing a complaint under this standard, the court "must accept as true all of the

7
8

factual allegations contained in the complaint," construe those allegations in the light most

9

favorable to the plaintiff, and resolve all doubts in the plaintiffs' favor. See Erickson v. Pardus,

10

551 U.S. 89, 94 (2007); Von Saher v. Norton Simon Museum of Art at Pasadena, 592 F.3d 954,

11

960 (9th Cir. 2010), cert. denied, 131 S. Ct. 3055 (2011); Hebbe v. Pliler, 627 F.3d 338, 340 (9th

12

Cir. 2010). However, the court need not accept as true legal conclusions cast in the form of

13

factual allegations, or allegations that contradict matters properly subject to judicial notice. See

14

Western Mining Council v. Watt, 643 F.2d 618,624 (9th Cir. 1981); Sprewell v. Golden State

15

Warriors, 266 F.3d 979, 988 (9th Cir.), as amended, 275 F.3d 1187 (2001).

16

Pro se pleadings are held to a less stringent standard than those drafted by lawyers.

17

Haines v. Kerner, 404 U.S. 519,520 (1972). Prose complaints are construed liberally and may

18

only be dismissed if it appears beyond doubt that the plaintiff can prove no set of facts in support

19

of his claim which would entitle him to relief. Nordstrom v. Ryan, 762 F.3d 903,908 (9th Cir.

20

2014). A prose litigant is entitled to notice of the deficiencies in the complaint and an

21

opportunity to amend, unless the complaint's deficiencies could not be cured by amendment. See

22

Noll v. Carlson, 809 F.2d 1446, 1448 (9th Cir. 1987).

23

B. The Applicable Statute of Limitations Bars All Claims

24

Although defendant raises three grounds for dismissal with prejudice, plaintiff's claims

25

are clearly time-barred and therefore must be dismissed without leave to amend. Accordingly,

26

the undersigned does not reach the alternative grounds for dismissal forwarded by defendant.

27

////

28

/Ill
4

A7

Case 2:18-cv-02244-JAM-AC Document 28 Filed 03/21/19 Page 5 of 8

1. Statute ofLimitations under TILA

l

2

Plaintiff's causes of action in the pending complaint against defendant are both TILA

3

claims, and they are both barred by the statute oflimitations. TILA, the Truth in Lending Act,

4

separately provides a damages remedy and a right to rescind a loan agreement when the lender's

5

disclosure statement is statutorily inadequate. Truth in Lending Act§§ 125(a), 130; 15 U.S.C. §§

6

1635(a), 1640(a); Ljepava v. M. L. S. C. Props., 511 F.2d 935, 940-41 (9th Cir. 1975); Semar v.

7

PlatteValley Fed. Sav. & Loan Ass'n, 791 F.2d 699, 704 (9th Cir. 1986). Plaintiff argues that no

8

statute of limitations applies to his case because does not seeks damages, but instead brings a

9

recession claim pursuant to § 1635 of TILA, seeking only injunctive relief. Indeed, Counts One

10

and Two of the Complaint both seek to enforce rescission under§ 1635, and thus appear to be

11

duplicative.

12

Plaintiff is correct that a claim for damages under 15 U.S.C. § 1640(e) is subject to a

13

different time limit than a rescission claim. Section 1640 expressly provides that an action

14

alleging a TILA violation must proceed "within one year from the date of the occurrence of the

15

violation." The statutory text of§ 1635, in contrast, does not include a limitations provision.

16

Plaintiff argues that this statutory silence means no statute of limitations applies to a§ 1635

17

claim. That is not correct. The Ninth Circuit has squarely held that held that TILA rescission

18

enforcement claims are subject to the statute of limitations provided by state law for contract

19

actions. Hoang v. Bank of Am., N.A, 910 F.3d 1096, 1101 (9th Cir. 2018).

20

Plaintiff relies on Jesinoski v. Countrywide Home Loans, Inc., 135 S. Ct. 790, 792 (2015),

21

which holds that a notice of rescission under TILA is effective upon its timely issuance, and that

22

the three-year deadline established by§ 1635(f) governs only the timeliness of the rescission

23

notice from the borrower to the creditor and is not a deadline for suit. Although the Supreme

24

Court reversed a lower court ruling that a rescission action was time-barred, the error that the

25

Court identified lay in treating the rescission notice deadline as a statute of limitations. Jesinoski

26

neither addressed nor decided the distinct question whether there is an extra-textual source for a

27

statute of limitations applicable to suits seeking the equitable enforce of rescission.

28

////

5

A8

Case 2:18-cv-02244-JAM-AC Document 28 Filed 03/21/19 Page 6 of 8
1

Following Jesinoski, the Ninth Circuit addressed this question. In Hoang. supra, the Ninth

2

Circuit held that "TILA does not provide a statute of limitations for rescission enforcement

3

claims. Accordingly, our precedent requires that we borrow from analogous [state contract] law."

4

910 F.3d at 1101. The Ninth Circuit expressly rejected the "argument that no statute of

5

limitations applies to TILA rescission enforcement claims." Id. at 1102. California provides a

6

four-year statute of limitations for contract actions. Cal. Civ. Proc. Code§ 337. Accordingly,

7

plaintiffs claims are subject to a four-year statute oflimitations.

8
9

The loan at issue here was consummated in 2004. Complaint, Ex. C. Plaintiff recorded
the Notice of Rescission in 2005, and the TILA cause of action arose when the bank failed to take

10

any action to wind up the loan within 20 days of receiving plaintiffs notice of rescission. 15

11

U.S.C. 1635(b); Hoang. 910 F.3d at 1102. The complaint in this case was filed more than ten

12

years after the loan transaction at issue. Plaintiff's TILA claims thus fall far outside the

13

applicable statute of limitations, and must be dismissed as untimely.

14

15

2. Any Putative Fraud Claim is Also Untimely
Plaintiff contends that the allegations of his Complaint support a claim for "fraud and

16

fraud in the inducement," although he has not expressly asserted a cause of action for fraud. ECF

17

No. 23 at 4. To the extent the complaint attempts to state a claim for fraud, it is time-barred.

18

California Code of Civil Procedure§ 338(d) sets a three-year limitations period for "[a]n

19

action for relief on the ground of fraud or mistake. The cause of action in that case is not deemed

20

to have accrued until the discovery, by the aggrieved party, of the facts constituting the fraud or

21

mistake." In general, "[a] cause of action accrues when the claim is complete with all of its

22

elements." Slovensky v. Friedman, 142 Cal.App.4th 1518, 1528 (2006), as modified (citation

23

omitted). "Although this ordinarily occurs on the date of the plaintiff's injury, accrual is

24

postponed until the plaintiff either discovers or has reason to discover the existence of a claim,

25

i.e., at least has reason to suspect a factual basis for its elements." Id. at 1528-29 (citations

26

omitted). "Plaintiffs are required to conduct a reasonable investigation after becoming aware of

27

an injury, and are charged with knowledge of the information that would have been revealed by

28

such an investigation." Id. at 1529 (citation and alteration omitted). "So long as there is a
6

A9

Case 2:18-cv-02244-JAM-AC Document 28 Filed 03/21/19 Page 7 of 8
1

reasonable ground for suspicion, the plaintiff must go out and find the facts; she cannot wait for

2

the facts to find her." Id. (citation omitted).

3

The allegations on which plaintiff relies for his putative fraud claim, see ECF No. 23 at 4,

4

involve false representations made by Phil Elauria and Princess Properties to plaintiff in 2004,

5

and the knowing acceptance of the fraudulent Aster loan application by BONY' s predecessor

6

financial institution. ECF No. 1 at ,r,r 10, 12, 16. Construing the putative fraud claim liberally,

7

the underlying events all occurred in 2004 and 2005. Even if plaintiff were to argue that his claim

8

against BONY could not have been discovered prior to BONY's active involvement in the matter,

9

the claim would be untimely because plaintiff has been litigating against BONY regarding the

10

subject property since 2012. The most recent event alleged in the complaint (and not alleged to

11

have been independently fraudulent) is BONY' s service of an unlawful detainer on May 18,

12

2015. ECF No. 1 at ,r 29. Plaintiffs complaint was filed in this court more than three years

13

thereafter. There is no theory under which a fraud claim could be timely.

14
15

3. Leave to Amend Would Be Futile

Although prose plaintiffs are ordinarily given an opportunity to amend, Noll, 809 F.2d at

16

1448, amendment in this case would be futile because untimeliness is not a problem that can be

17

solved by changes to the pleadings. There are no additional facts or alternative theories that could

18

be added to the Complaint to make the TILA claims timely. Amendment to expressly assert a

19

fraud claim would also be futile, because such a claim is also time-barred. Accordingly, leave to

20

amend is not appropriate.

21
22
23
24

CONCLUSION

For the reasons explained above, it is hereby RECOMMENDED that defendant's motion
to dismiss (ECF No. 16) be GRANTED and that this case be DISMISSED with prejudice.
These findings and recommendations are submitted to the United States District Judge

25

assigned to this case, pursuant to the provisions of 28 U.S.C. § 636(b)(l). Within twenty-one (21)

26

days after being served with these fmdings and recommendations, any party may file written

27

objections with the court. Such document should be captioned "Objections to Magistrate Judge's

28

Findings and Recommendations." Local Rule 304(d). Failure to file objections within the
7

A10

Case 2:18-cv-02244-JAM-AC Document 28 Filed 03/21/19 Page 8 of 8

1

specified time may waive the right to appeal the District Court's order. Martinez v. Ylst, 951

2

F.2d 1153 (9th Cir. 1991).

3

DATED: March 21, 2019

4

5

ALLISON CLAIRE
UNITED STATES MAGISTRATE JUDGE

6
7

8
9

10
11

12
13
14

15
16
17

18

19
20
21
22
23
24
25
26

27

28
8

A11

Case 2:18-cv-02244-JAM-AC Document 31 Filed 04/17/19 Page 1 of 2

1
2
3
4
5
6
7
8

UNITED STATES DISTRICT COURT

9

FOR THE EASTERN DISTRICT OF CALIFORNIA

10
11

IQBAL S. RANDHAWA,

12
13
14
15

No. 2:18-cv-2244 JAM AC PS

Plaintiff,
v.

ORDER

BANK OF NEW YORK MELLON,
Defendant.

16
17

Plaintiff is proceeding in this matter pro se, following the withdrawal of counsel. ECF

18

No. 12. Accordingly, pre-trial proceedings were referred to a United States Magistrate Judge

19

pursuant to Local Rule 302(c)(21).

20

On March 21, 2019, the magistrate judge filed findings and recommendations herein

21

which were served on all parties and which contained notice to all parties that any objections to

22

the findings and recommendations were to be filed within twenty-one days. ECF No. 28.

23

Plaintiff has filed objections to the findings and recommendations, albeit one day after the filing

24

deadline. ECF No. 29.

25

In accordance with the provisions of 28 U.S.C. § 636(b)(1)(C) and Local Rule 304, this

26

court has conducted a de novo review of this case. Having carefully reviewed the entire file,

27

including plaintiff’s objections, the court finds the findings and recommendations to be supported

28

by the record and by proper analysis.
1

A12

Case 2:18-cv-02244-JAM-AC Document 31 Filed 04/17/19 Page 2 of 2

1

Accordingly, IT IS HEREBY ORDERED that:

2

1. The findings and recommendations filed March 21, 2019, are adopted in full; and

3

2. Defendant’s motion to dismiss (ECF No. 16) is GRANTED, and this case is

4

DISMISSED with prejudice.

5
6

DATED: April 17, 2019
John A. Mendez__________________________

7

UNITED STATES DISTRICT COURT JUDGE

8
9
10
11
12
13
14
15
16
17
18
19
20
21
22
23
24
25
26
27
28
2

A13

Case: 19-15926, 09/29/2020, ID: 11840607, DktEntry: 29, Page 1 of 1

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

FILED
SEP 29 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

IQBAL S. RANDHAWA,

No.

Plaintiff-Appellant,

19-15926

D.C. No.
2:18-cv-02244-JAM-AC
Eastern District of California,
Sacramento

v.
BANK OF NEW YORK MELLON, FKA
Bank of New York, Successor to JPMorgan
Chase Bank, NA, as trustee, on behalf of the
holders of the Structured Asset Mortgage
Investment II Inc., Bear Stearns Alt-A Trust,
Mortgage Pass-Through Certificates, Series
2004-12,

ORDER

Defendant-Appellee.
Before: THOMAS, Chief Judge, and HAWKINS and McKEOWN, Circuit
Judges.
The panel votes to deny the petition for rehearing (Dkt. 28). The full court
has been advised of the petition for rehearing and rehearing en banc and no judge
has requested a vote on whether to rehear the matter en banc. Fed. R. App. P. 35.
The petition for panel rehearing and the petition for rehearing en banc are
DENIED.

A14

15 U.S.C.A. § 1635. Right of rescission as to certain transactions

(a) Disclosure of obligor’s right to rescind
Except as otherwise provided in this section, in the case of any consumer credit
transaction (including opening or increasing the credit limit for an open end credit plan) in
which a security interest, including any such interest arising by operation of law, is or will
be retained or acquired in any property which is used as the principal dwelling of the
person to whom credit is extended, the obligor shall have the right to rescind the
transaction until midnight of the third business day following the consummation of the
transaction or the delivery of the information and rescission forms required under this
section together with a statement containing the material disclosures required under this
subchapter, whichever is later, by notifying the creditor, in accordance with regulations of
the Bureau, of his intention to do so. The creditor shall clearly and conspicuously disclose,
in accordance with regulations of the Bureau, to any obligor in a transaction subject to this
section the rights of the obligor under this section. The creditor shall also provide, in
accordance with regulations of the Bureau, appropriate forms for the obligor to exercise
his right to rescind any transaction subject to this section.
(b) Return of money or property following rescission
When an obligor exercises his right to rescind under subsection (a), he is not liable for any
finance or other charge, and any security interest given by the obligor, including any such
interest arising by operation of law, becomes void upon such a rescission. Within 20 days
after receipt of a notice of rescission, the creditor shall return to the obligor any money or
property given as earnest money, downpayment, or otherwise, and shall take any action
necessary or appropriate to reflect the termination of any security interest created under
the transaction. If the creditor has delivered any property to the obligor, the obligor may
retain possession of it. Upon the performance of the creditor’s obligations under this
section, the obligor shall tender the property to the creditor, except that if return of the
property in kind would be impracticable or inequitable, the obligor shall tender its
reasonable value. Tender shall be made at the location of the property or at the residence
of the obligor, at the option of the obligor. If the creditor does not take possession of the
property within 20 days after tender by the obligor, ownership of the property vests in the
obligor without obligation on his part to pay for it. The procedures prescribed by this
subsection shall apply except when otherwise ordered by a court.
(c) Rebuttable presumption of delivery of required disclosures
Notwithstanding any rule of evidence, written acknowledgment of receipt of any
disclosures required under this subchapter by a person to whom information, forms, and a
statement is required to be given pursuant to this section does no more than create a
rebuttable presumption of delivery thereof.

A15

(d) Modification and waiver of rights
The Bureau may, if it finds that such action is necessary in order to permit homeowners to
meet bona fide personal financial emergencies, prescribe regulations authorizing the
modification or waiver of any rights created under this section to the extent and under the
circumstances set forth in those regulations.
(e) Exempted transactions; reapplication of provisions
This section does not apply to-(1) a residential mortgage transaction as defined in section 1602(w)1 of this title;
(2) a transaction which constitutes a refinancing or consolidation (with no new advances)
of the principal balance then due and any accrued and unpaid finance charges of an
existing extension of credit by the same creditor secured by an interest in the same
property;
(3) a transaction in which an agency of a State is the creditor; or
(4) advances under a preexisting open end credit plan if a security interest has already
been retained or acquired and such advances are in accordance with a previously
established credit limit for such plan.
(f) Time limit for exercise of right
An obligor’s right of rescission shall expire three years after the date of consummation of
the transaction or upon the sale of the property, whichever occurs first, notwithstanding
the fact that the information and forms required under this section or any other
disclosures required under this part have not been delivered to the obligor, except that if
(1) any agency empowered to enforce the provisions of this subchapter institutes a
proceeding to enforce the provisions of this section within three years after the date of
consummation of the transaction, (2) such agency finds a violation of this section, and (3)
the obligor’s right to rescind is based in whole or in part on any matter involved in such
proceeding, then the obligor’s right of rescission shall expire three years after the date of
consummation of the transaction or upon the earlier sale of the property, or upon the
expiration of one year following the conclusion of the proceeding, or any judicial review or
period for judicial review thereof, whichever is later.

A16

(g) Additional relief
In any action in which it is determined that a creditor has violated this section, in addition
to rescission the court may award relief under section 1640 of this title for violations of
this subchapter not relating to the right to rescind.
(h) Limitation on rescission
An obligor shall have no rescission rights arising solely from the form of written notice
used by the creditor to inform the obligor of the rights of the obligor under this section, if
the creditor provided the obligor the appropriate form of written notice published and
adopted by the Bureau, or a comparable written notice of the rights of the obligor, that
was properly completed by the creditor, and otherwise complied with all other
requirements of this section regarding notice.
(i) Rescission rights in foreclosure
(1) In general
Notwithstanding section 1649 of this title, and subject to the time period provided in
subsection (f), in addition to any other right of rescission available under this section for
a transaction, after the initiation of any judicial or nonjudicial foreclosure process on the
primary dwelling of an obligor securing an extension of credit, the obligor shall have a
right to rescind the transaction equivalent to other rescission rights provided by this
section, if-(A) a mortgage broker fee is not included in the finance charge in accordance with the
laws and regulations in effect at the time the consumer credit transaction was
consummated; or
(B) the form of notice of rescission for the transaction is not the appropriate form of
written notice published and adopted by the Bureau or a comparable written notice,
and otherwise complied with all the requirements of this section regarding notice.
(2) Tolerance for disclosures
Notwithstanding section 1605(f) of this title, and subject to the time period provided in
subsection (f), for the purposes of exercising any rescission rights after the initiation of
any judicial or nonjudicial foreclosure process on the principal dwelling of the obligor
securing an extension of credit, the disclosure of the finance charge and other disclosures
affected by any finance charge shall be treated as being accurate for purposes of this
section if the amount disclosed as the finance charge does not vary from the actual
finance charge by more than $35 or is greater than the amount required to be disclosed
under this subchapter.

A17

(3) Right of recoupment under State law
Nothing in this subsection affects a consumer’s right of rescission in recoupment under
State law.
(4) Applicability
This subsection shall apply to all consumer credit transactions in existence or
consummated on or after September 30, 1995.

.

A18

"

1

2
3
4

Case 2:18-cv-02244-JAM-AC Document 21 Filed 02/21/19 Page 1 of 123
IQBAL SINGH RANDHAWA
681 DYNASTY DRIVE
FAIRFIELD, CA 94534
TEL. (707)290-3700
EMAIL : paulrandhawa@comcast.net

FILED
FEB 21 2019
U.S. DISTRICT O
EASCTELIRK.
RN DISTRICT OF CAIJ60,aNl,
av _ _1!fiSirrrnm;-~C..-

Plaintiff, In Pro Se

5
6

UNITED STATES DISTRICT COURT

7

EASTERN DISTRICT OF CALIFORNIA (SACRAMENTO DIVISION)

8
9

IQBAL SINGH RANDHAWA

10
11
12
13

14
15
16
17
18
19
20
21

22
23
24

No. CASE NO.: 2:18-CV-02244-JAM-AC

Plaintiff,

FIRST AMENDED COMPLAINT

v.
PRINCESS PROPERTIES &
ASSOCIATES ACQUISITIONS &
HOLDINGS, LLC; SIERRA PACIFIC
MORTGAGE CO. INC; THE BANK
OFNEWYORKMELLONF/K/A THE
BANKOF NEW YORK, SUCCESSOR
TO JPMORGAN CHASE BANK, NA,
AS TRUSTEE, ON BEHALF OF THE
HOLDERS OF THE STRUCTURED
ASSET MORTGAGE INVESTMENT II
INC., BEAR STEARNS ALT-A TRUST,
MORTGAGE PASS- THROUGH
CERTIFICATES, SERIES 2004-12;
MERSCORP HOLDINGS INC.;
MORTGAGE REGISTRATION
SYSTEMS, INC.; all persons unknown
claiming any legal or equitable right,
title, estate, lien or interest, in the
property described in this First
Amended Complaint adverse to the
Plaintiffs title or any cloud on the
Plaintiff's title; and Does 1-20

Date: March 6, 2019
Time: 10:00 AM
Judge: Magistrate Judge Allison Claire

Defendant.

25
26

FIRST AMENDED COMPLAINT

27
Plaintiff alleges that:
28
1

VOL. 2, Page 071

Case: 19-15926, 08/08/2019, ID: 11391029, DktEntry: 11-2, Page 73 of 202

A19

Case 2:18-cv-02244-JAM-AC Document 21 Filed 02/21/19 Page 2 of 123
1

PARTIES

2
3

1. Plaintiff, IQBAL SINGH RANDHAWA ("Plaintiff" or "Randhawa") is, and at all

4

times relevant to this First Amended Complaint was, an individual residing in Solano County,

5

California, at the property commonly known as 681 Dynasty Drive, Fairfield, California 95534

6

7

(the "Property"). The legal description of the Property is attached to this First Amended
Complaint as Exhibit "A" and incorporated herein by this reference.

8
2. On information and belief, Plaintiff alleges that Defendant PRINCESS PROPERTIES
9

10

& ASSOCIATES ACQUITIONS & HOLDINGS, LLC ("Princess") was, at all times relevant

11

herein, a Limited Liability Company formed under the laws of CA with a principal address of

12

37481 Maple Street, Suite L, Fremont, CA 94536.

13
14

a. Princess and Sierra (see below) became involved when their representatives induced the
Plaintiff to execute documentation that led to the temporary loss of legal title to the subject

15
property, but not the equitable title or right to possession.
16
17
18

b. False representations were made by certain defendants described above including or on
behalf of Princess and Sierra upon which Plaintiff reasonably relied to his detriment, to wit: that

19

the intervention of Princess and Sierra would result in a modification of the original loan

20

agreement and/or the currently claimed encumbrance upon his property as described above.

21

22

c. Neither BONY nor Chase were parties to the false representations made to Plaintiff.
However, both BONY and Chase knew, must have known or should have known of the scheme

23
and both knew that neither BONY nor the Holders had any legal claim or basis for foreclosure to

24

26
27

28

wit: neither BONY nor the Holders (nor any implied trust) was at risk of monetary loss arising
from payments or non-payments of the subject
3. On information and belief, Plaintiff alleges Walter Aster ("Aster") was, at all times
relevant herein, acting for his own benefit and/or was an agent, servant, manager, owner and/or
2

VOL. 2, Page 072

Case: 19-15926, 08/08/2019, ID: 11391029, DktEntry: 11-2, Page 74 of 202

25

A20

Case 2:18-cv-02244-JAM-AC Document 21 Filed 02/21/19 Page 3 of 123
1

employee of Real Opportunity Investments, LLC. Aster is not named as a Defendant because he

2

filed for Bankruptcy Protection.

3

4. On information and belief, Plaintiff alleges that Defendant, SIERRA PACIFIC

4

MORTGAGE COMPANY, INC. ("Sierra") was, at all times relevant herein, a corporation
5
6
7

organized under the laws of the State of CA.
5. On information and belief, Plaintiff alleges that FREMONT INVESTMENT AND

8

LOAN ("Fremont'') may have been, at all times relevant herein the fictitious name used by FGC

9

Commercial Mortgage Finance a Corporation organized under the laws of the State of CA.

10

(Fremont) Fremont's mortgage-servicing rights were sold to Litton Loan Servicing (owned at the

11

time by Goldman Sachs, an investment bank, now owned by Ocwen). Fremont is not named as
12
13
14
15
16

Defendant because, upon information and belief, it is defunct. No sale ofloans by Fremont was
ever announced, nor did Fremont report any loans as assets. Acting solely as an "originator, for a
service fee, Fremont was named as Payee on the subject note and "lender" on the mortgage.
a. At all times material hereto Plaintiff relied upon the false disclosures at the

17

asserted closing of the loan transaction with Fremont and was therefore unaware of the identity of
18
19
20
21

22

the party who funded his loan (most likely Bear Stearns) nor of any successors to said party.
b. Plaintiff was further unaware that the debt had been sold multiple times to multiple
parties without recourse leaving both the existence and ownership of the debt, legally or
equitably, in confusion and doubt.

23
24

6. On information and belief, Plaintiff alleges that Defendant THE BANK OF NEW

25

YORK MELLON F/K/A THE BANK OF NEW YORK, (BONY) is asserted to be a

26

SUCCESSOR TO JPMORGAN CHASE BANK, NA, (Chase) AS TRUSTE. BONY has

27

appeared exclusively as a representative, "ON BEHALF OF THE HOLDERS (Holders) OF THE

28
3

VOL. 2, Page 073

Case: 19-15926, 08/08/2019, ID: 11391029, DktEntry: 11-2, Page 75 of 202

A21

Case 2:18-cv-02244-JAM-AC Document 21 Filed 02/21/19 Page 4 of 123
1

STRUCTURED ASSET MORTGAGE INVESTMENT II INC., BEAR STEARNS ALT-A

2

TRUST, MORTGAGE PASS- THROUGH CERTIFICATES, SERIES 2004-12" BONY

3

(Certificates) is, and at all times relevant herein was, a commercial bank chartered under the laws

4

of the state of New York with its principal place of business in New York City, New York.

5
6

a. With respect to the subject debt, note or mortgage, BONY has performed no

7

functions as a commercial bank and was upon information and belief named as

8

"Trustee" of an implied but unstated Trust under an agreement by which BONY

9

received fees for use of its name in foreclosure actions.

10

11
12
13
14

b. With respect to the subject debt, note or mortgage, BONY has performed no
administrative functions as a trustee and was prohibited from doing so under the
agreement by which it gave permission for its name to be used.
c. With respect to the subject debt, note or mortgage, no trust has acquired the debt,

15
note, mortgage or servicing rights. In addition, neither the Holders nor BONY ever
16
17
18
19

acquired the subject debt, note, mortgage or servicing rights.
d. With respect to the "certificates," the 'holders" acquired no right, title or interest in
the debt, note or mortgage.

20
21

e. Bear Stearns (BS) was an investment bank, now defunct and/or acquired by

22

Chase. BS issued the Certificates to investors. Upon information and belief no

23

purchase or sale of the subject debt, note and mortgage was ever transacted between

24
25

the Holders (investors) and Bear Stearns. Upon information and belief, at the time of
the demise of BS and subsequent acquisition of its remainder by Chase, the subject

26
loan was not an asset of BS nor of Chase, nor was it an asset of BONY or any trust,
27
implied or otherwise.
4

VOL. 2, Page 074

Case: 19-15926, 08/08/2019, ID: 11391029, DktEntry: 11-2, Page 76 of 202

28

A22

Case 2:18-cv-02244-JAM-AC Document 21 Filed 02/21/19 Page 5 of 123
1

2
3

7. Defendant MERSCORP HOLDINGS, INC., Inc. ("MERSCORP") is a Delaware
corporation with its principal place of business in Reston, Virginia. MERSCORP is owned by
many of the most significant stakeholders in the mortgage lending industry, including actual

4
lenders, mortgage originating companies and servicing companies (e.g., Bank of America, N.A.,

5
6

Chase Home Mortgage Corporation of the Southeast, Wells Fargo Bank, N.A., CitiMortgage,

7

Inc., CHASE NA Residential Funding Corporation), government sponsored entities (e.g., the

8

Federal National Mortgage Association, known as "Fannie Mae," and the Federal Home Loan

9

Mortgage Corporation, known as "Freddie Mac"), mortgage insurance and title companies (e.g.,

10

First American Title Insurance Corporation and PMI Mortgage Insurance Company), and the

11
Mortgage Bankers Association. MERSCORP owns and operates an electronic registry system
12

13
14
15

that purports to track the ownership and servicing rights of its members in residential mortgage
loans ("the MERS System"). There are over 3,000 members in MERSCORP, including
Defendant BONY.

16

8. Defendant MORTGAGE ELECTRONIC REGISTRATION SYSTEMS, INC.,

17

("MERS, Inc.") is a wholly owned subsidiary of MERSCORP. MERS is a Delaware corporation

18

with its principal place of business located in Reston, Virginia. MERS' name is used when it is

19
asserted to be the nominee of the party asserted as mortgagee or the nominee of the party asserted
20
21

22
23

as beneficiary in the public land records for loans that are input ("registered") on the MERS
System. Such is the case at bar.
a. As part of its business plan, MERS always disclaims all right, title or interest in any

24

money, debt, note or deed of trust relating to any asserted loan agreement. It neither consents to

25

nor is a party to any documents that use the MERS name. The disclaimer is apparent on its

26

website, on all agreements between MERS and its owners/members and in all court documents

27
filed "on behalf' of MERS.

28
5

VOL. 2, Page 075

Case: 19-15926, 08/08/2019, ID: 11391029, DktEntry: 11-2, Page 77 of 202

A23

Case 2:18-cv-02244-JAM-AC Document 21 Filed 02/21/19 Page 6 of 123
1

2
3

9. In all cases and all events MERS is asserted on documents to be a "Nominee" for a
party named on a mortgage deed or deed of trust as "lender" (i.e., the originator). This is
permissible in some jurisdictions when construed as creating a narrow agency relationship. It is

4

not a lender, servicer or otherwise directly involved in any monetary transactions nor accounting
5
6

or collection involving any loans and is not a financial institution of any kind. However, entries

7

on the MERS data systems are used to support collection, servicing and enforcement claims.

8

MERS is also often asserted to have an agency relationship with parties claiming to be either

9

successors to the originator ("lender") or successors in interest to the originator ("lender") as to

10
11

the mortgage or deed of trust, the note or both. Such is the case at bar. MERSCORP, MERS Inc.
and the MERS System are referred to herein as "MERS."

12
13
14

a. At the time of origination of the subject loan agreement, MERS was named as
"nominee" for Fremont. None of the parties named above were ever successors in interest to

15

Fremont, except for certain servicing rights, which may have included administration of the

16

subject debt, note and mortgage on behalf of Fremont, whose only interest was servicing the debt

17

and who never owned the debt.

18

10. Defendants herein named as "all persons unknown, claiming any legal or equitable

19
right, title or interest in the Property described herein adverse to Plaintiff's title, or any cloud on
20

21

Plaintiff's title thereto" are unknown to Plaintiff. Plaintiff is informed and believes that these

22

unknown defendants, and each of them, claim some right, title, estate, lien or interest in the

23

property hereafter described adverse to Plaintiff's title; and their claims, and each of them,

24

constitute a cloud on Plaintiff's title to that property.

25
26

11. Plaintiff is currently unaware of the true names and capacities of Defendants sued
herein as DOES 1 through 20, inclusive, and therefore sue these Defendants by these fictitious

27
names .. Plaintiffwill further amend his Complaint to allege these Defendants' true names and

6
VOL. 2, Page 076

Case: 19-15926, 08/08/2019, ID: 11391029, DktEntry: 11-2, Page 78 of 202

28

A24

Case 2:18-cv-02244-JAM-AC Document 21 Filed 02/21/19 Page 7 of 123
1

capacities when ascertained. Plaintiff is informed and believes, and thereon alleges, that each of

2

the fictitiously named Defendants is responsible in some manner and to some degree for the

3

occurrences herein alleged and that such Defendants proximately caused Plaintiff's damages as

4
herein alleged.

5
JURISDICTION AND VENUE

6
7

12. Plaintiff alleges that this court has jurisdiction over this matter because, as alleged

8

hereinbelow, Plaintiff asserts claims arising out of federal law and the amount in controversy

9

exceeds $75,000. Venue is proper within this district because the Property is located within this

10

11

district, Plaintiff resides in this district, and the majority of the facts and circumstances alleged
herein occurred within this district.

12

PRELIMINARY STATEMENT AS TO
DEFENDANTS PRINCESS PROPERTIES AND WALER ASTER

13
14

13. As home mortgage foreclosure increased from 2000 through the present, so have so-

15
called "foreclosure rescue scams." Typically, a homeowner facing foreclosure is identified in

16
17
18

newspapers or at government offices. The rescuer contacts the homeowner by phone, personal
visit, card or flyer, and offers to stop the foreclosure by promising a fresh start through a variety

19

of devices. As the date for the foreclosure approaches and the urgency of the matter becomes

20

greater, the rescuer or some entity with which he is linked agrees to arrange for the pay-off of the

21

mortgage indebtedness and to see to the transfer of title to the property to an investor pre-

22

arranged by the rescuer, often with a leaseback of the property or with the promise of transferring

23
the property back to the homeowner after a specific period of time. The goal is to steal the

24
25

property and/or equity from the homeowner's home. The result is loss of the homeowner's title,

26

loss of the homeowner's possession, and loss of the homeowner's equity. What typically happens

27

is:
a.

All proceeds are used to pay off the defaulted loan
7

VOL. 2, Page 077

Case: 19-15926, 08/08/2019, ID: 11391029, DktEntry: 11-2, Page 79 of 202

28

A25

Case 2:18-cv-02244-JAM-AC Document 21 Filed 02/21/19 Page 8 of 123
1

b. The homeowner walks away with nothing

2
c. The "investor" pockets the equity and runs
3
4

d. The straw borrower defaults on the loan

5
e. The homeowner is evicted, loses the house and all equity.
6
7

14. Typically, a new lender extends a loan in the name of the "straw purchaser" for the

8

full value of the property. This new lender fails to perform due diligence in order to determine

9

the nature of the transaction, despite numerous red flags. Since the loan is usually sold on the

10
secondary market as a mortgage backed security and because courts have liberally applied the

11
12
13
14

"bona fide lender" and "bona fide purchaser" doctrines, there is little risk that even the complicit
lender will ever be held accountable.
15. Since a Foreclosure Rescue Scam is, by definition, fraudulent, it is very hard to

15

combat. But what is at stake is the American Dream of homeownership. The victims of these

16

scams are not the improvident or the irresponsible people who borrowed more than they could

17

pay and now find themselves "under water." On the contrary, a Foreclosure Scam Artist only

18
seeks out victims who are well above water; people with lots of untapped equity in their homes.
19
20

21

22
23

24
25

These are often the most vulnerable among us.

PRELIMINARY STATEMENT AS TO FREMONT, SIERRA AND BONY
16. This matter involves parties who individually,jointly and severally participated in
statements, activities and events in which false representations were made to the Plaintiffs and to
courts oflaw in which some of the Defendants were asserted to be lenders, servicers and/or
owners of the Deed of Trust executed by Plaintiff on or about September 2000 naming Fremont

26
as Plaintiffs lender and MERS as "Mortgagee" or "Beneficiary and acting solely as nominee for
27
lender or lender's successors and assigns. This matter further involves two deeds of trust from
8

VOL. 2, Page 078

Case: 19-15926, 08/08/2019, ID: 11391029, DktEntry: 11-2, Page 80 of 202

28

A26

Case 2:18-cv-02244-JAM-AC Document 21 Filed 02/21/19 Page 9 of 123

1

Aster, the asserted Owner of Real Opportunity, on the Property in favor of Sierra Pacific. The two

2

deeds of trust named Sierra Pacific as "lender "and naming MERS as "Mortgagee" or

3

"Beneficiary" and acting solely as nominee for lender or lender's successors and assigns. The

4

two deeds of trust from Aster to Sierra Pacific were allegedly assigned to Defendant BONY by a
5
6

MERS. a. Specifically, BONY alternately named itself or the above referenced nonexistent

7

"trust" as the owner, servicer or "holder" of the debt, note and deed of trust in order to pursue a

8

foreclosure for its own interests, apart from the interests of the actual owner of the debt all in

9

derogation of the rights of the borrower, causing damages as more particularly described below.

10
11

b. At the same time Sierra participated in a scheme by Princess Properties and Aster to use
Aster's name and credit to obtain two purchase money mortgages from Sierra Pacific Mortgage

12

Company, falsely representing that Aster intended to live in the Subject Property and to further
13
14
15
16

17
18

actively conceal the identity of the real owner of the subject debt and to engage in statements,
activities and events that misrepresented the status of all of the Defendants hereto.
(i) The result of this scheme was to obfuscate the misrepresentation and non-disclosures

committed by Defendants. Further result of this scheme was interference between the Plaintiff
and the owner of the debt such that neither the Plaintiff nor the owner knew of the existence or

19

identity of the other, thus preventing compliance with statutory and common law duties and

20
21

obligations regarding servicing, administration, modification or any settlement with the party

22

owning the debt, which contributed to damages suffered by Plaintiffs as more particularly

23

described below.

24
25

26

c. At no time was the foreclosure, or any of the events leading up to the foreclosure
(Notice of Default) intended to provide any benefit or pay for any loss incurred by the owner of
any actual debt. In fact, upon information and belief, such action was pursued in derogation of the

27

rights of the owner of the actual debt and the rights of the Plaintiff.

28
9

VOL. 2, Page 079

Case: 19-15926, 08/08/2019, ID: 11391029, DktEntry: 11-2, Page 81 of 202

A27

Case 2:18-cv-02244-JAM-AC Document 21 Filed 02/21/19 Page 10 of 123

1
2
3

d. The foreclosure is void because none of the representations made regarding the legal
status of the loans or the participants supporting the claim for foreclosure were true. Most of the
misrepresentations were based upon fabricated documentation.

4
17. In short, MERS' conduct, as well as the Defendant's abuse of the MERS System, have

5
6

resulted in the filing of false, fraudulent and /or improper filings or publications and /or recording

7

of false instruments to support Foreclosure Proceedings, undermining the integrity of the judicial

8

process, creating confusion and uncertainty concerning property ownership interests, and

9

potentially created clouds of title on the subject property.

10
11

18. Fraudulent conduct which prevents a party from fairly and fully presenting his claims
or defenses is extrinsic fraud and not subject to res judicata.

12
13
14

15
16

19. A state court foreclosure obtained through fraud does not have a preclusive effect, and
this Court has the ability, if not the duty, to examine evidence of fraud brought to its attention.
20. Analysis of the facial validity of the use of various names and descriptions reveals the
absence of an actual party. Hence the documents upon which the above language relies does not

17
support facial validity.
18
19
20
21

21. The documents containing the language described above should not have been
recorded. The county recorder should have rejected such documents as being facially invalid,
requiring additional language and/or documents to be attached, if they existed.

22
23

22. Such language is a substantial deviation from custom and practice as well as common

24

sense and logic. Custom and practice of the same banks that are listed in the language described

25

above requires that they not accept such language without the additional documentation and

26

confirmation of facts that are declared on the face of the instrument. Common sense dictates that

27

the reason why such custom and practice exists is that most fraudulent schemes involve written

28
VOL. 2, Page 080

Case: 19-15926, 08/08/2019, ID: 11391029, DktEntry: 11-2, Page 82 of 202

A28

Case 2:18-cv-02244-JAM-AC Document 21 Filed 02/21/19 Page 11 of 123
1

instruments in which various declarations are made that are untrue and lack support. For

2

purposes of recording, any declaration on the face of the instrument that requires the attachment

3

or description of documents that are not readily available in the public domain would be

4

unacceptable, much as, for example, a deed without a signature. The property must be described
5

6

with precision (or later corrected by affidavit), the grantor must be described with precision (or

7

later corrected) and the grantee must be described with precision (or later corrected). Without the

8

required corrections, the documents are facially invalid.

9
23. The absence of facially valid documents, even though they were improperly recorded,
10

11
12

13
14

negates the potential use of legal presumptions arising from the facial validity of
documents. Therefore, such documents should be rejected without proper foundation in
connection with the use of such documents for any purpose.
24. The proceedings in which the property was allegedly foreclosed, is improper and

15
based upon invalid terms. It is obvious that all such documents including the deed upon
16
17

18
19

foreclosure are defective in several material respects. The current title chain in the county records
regarding this property is at best clouded.
25. For a document to mean anything it must say enough that a reasonable person would

20

be able to confidently draw meaning from it. Analyzing the facial validity of documents used in
21

22
23
24
25

the within foreclosure reveals a pattern of misrepresenting the facial validity and thence to legal
conclusions that bind homeowners into proving matters beyond their control.
26. BONY is not and never has been a successor to JPMorgan Chase. There is nothing in
the public domain to support that assertion. There is no instrument attached and no description of

26

28

any transaction in which, as to this subject property and loan, we can ascertain how
BONY became the successor to JPMorgan Chase or even how Chase had any right, title or
11

VOL. 2, Page 081

Case: 19-15926, 08/08/2019, ID: 11391029, DktEntry: 11-2, Page 83 of 202

27

A29

Case 2:18-cv-02244-JAM-AC Document 21 Filed 02/21/19 Page 12 of 123
1

interests concerning the subject loan. Hence the docwnents in which BONY appears are not

2

facially valid and are defective in terms of proof of title. The usual and acceptable manner of

3

phrasing such a succession, if it were true, would be "as successor to JPMorgan Chase pursuant to

4

that certain agreement of transfer by and between JPMorgan Chase (and/or other parties) and
5
6

BONY dated July 6, 200X."

7

8

27.The use of the word "successor" suggests that BONY is in the role of Trustee. There is
no instrwnent attached and no description of any transaction in which, as to this subject property

9

and loan, the BONY became the successor Trustee to JPMorgan Chase. Hence the docwnents in
10

11
12
13
14

which BONY appears as Trustee are not facially valid and are defective in terms of proof of
title.
28. Other than by the use of parole evidence (outside the information contained on the
document itself) the reader cannot ascertain the existence or description of a specific trust

15
organized and existing under the laws of any jurisdiction. In addition, the issue of a transfer or
16
17

change of trustees of a trust, if one can be found, is not supported by language such as "pursuant

18

to the provisions of the trust agreement dated the 3rd day of May, 200Y in which the trust named

19

'Structured Asset Mortgage Investment II, Inc., Bear Stearns ALT-A Trust' was created under the

20

laws of the State of New York". Without such reference the facial validity of the instruments

21
22

remains invalid. Without the knowledge of the legal existence of the trust being confirmable by
public record, there is no support for the implied trust. Without support for the implied trust and

23

24
25

the trust agreement creating it, there is no obvious support for how trustees could exist or be
changed. Without support on the face of the instrwnents for how trustees of a trust could be

26

changed, the description of the change of trustees is merely a declaration that is not supported by

27

anything on the fact of the document.

28
12

VOL. 2, Page 082

Case: 19-15926, 08/08/2019, ID: 11391029, DktEntry: 11-2, Page 84 of 202

A30

Case 2:18-cv-02244-JAM-AC Document 21 Filed 02/21/19 Page 13 of 123
1
2

3

a. Notwithstanding all of the above, Defendants persisted in their various individual and
combined schemes and in making representations under cover of Plausible deniability ostensibly
created by the complexity of ''transactions" that never actually occurred in the real world.

4

5

29. JPMorgan Chase is implied to have been the Trustee of the potentially nonexistent

6

trust. Once again, the implied assertion leaves the reader to determine if the trust was created

7

pursuant to the laws of any jurisdiction, and if JPMorgan was named as Trustee for the Trust.

8
9

In either event, both BONY and JPMorgan are described to be acting in a representative capacity

10

on behalf of "holders ... of pass through certificates" and not as "trustees" of any ''trust." The

11

certificates are identified as Mortgage pass Through Certificates Series 2004-12. The reference to

12

being a ''trustee" and the implied representations of the holders of certificates would be

13
14

acceptable if the "holders" were described as beneficiaries. The extrinsic evidence often shows
that such holders are not beneficiaries.

15
16

a. Any available description in the public domain is carefully worded to avoid any

17

direct assertion that investors are owners of the subject debt or any debt.

18
b.

This leads to the question of how and why there is representation of the holders,

19
20

apart from the alleged trust. Is the representation implied from the trust agreement

21

that is not described? Is the representation the result of some other trust or agency

22

agreement? It is not possible to ascertain the answers to these vital questions without

23

resort to extrinsic evidence, thus making the instruments relying upon such language,

24

facially invalid.

25

26
27

c. Notwithstanding the above, the attorneys for Chase and then BONY have made
representations such that sitting judges came to the conclusion that the documents

28
13

VOL. 2, Page 083

Case: 19-15926, 08/08/2019, ID: 11391029, DktEntry: 11-2, Page 85 of 202

A31

Case 2:18-cv-02244-JAM-AC Document 21 Filed 02/21/19 Page 14 of 123

1

were facially valid and presumed true which resulted in implied findings of fact

2

exactly opposite to true events.

3
4

5
6

PRELIMINARY STATEMENT AS TO RESCISSION
30. TILA gives borrowers a federal right to rescind certain consumer-credit transactions,
and the statute unambiguously describes how to exercise the right: "by notifying the creditor, in

7
accordance with regulations." 15 U.S.C. § 1635(a). Tue sending of the notice triggers a series of

8
9

steps through which the transaction is unwound. 15 U.S.C. § 1635(b) (mandating the creditor 20

10

days from "receipt of a notice" to take certain acts). A creditor in receipt of a rescission notice

11

must judicially seek a declaration that the notice was untimely, or that the section l 635(b)

12

procedures should be altered in light of the circumstances presented. 15 U.S.C. § 1635(b); 28

13

U.S.C. § 2201; New Me. Nat'/ Bankv. Gendron, 780 F. Supp. 52, 56 (D. Me. 1991). An obligor

14

may sue for damages under section 1640(a) for a creditor's failure to follow the unwinding

15
procedures expressed in§ 1635(b); see also 12 C.F.R. § 226.23(d)(2)-(4).
16
17

31. Courts do not render "a judgment of rescission." TILA rescission at law mechanics is

18

the result of an action already taken without the aid of a court. See Sherzer v. Homestar Mortg.

19

Servs., 707 F.3d 255,265 (3rd Cir. 2013) (discussing differences between rescission at law "akin

20

to the way§ 1635 operates," and rejecting rescission in equity); Dan B. Dobbs, Law of Remedies

21
22

§ 4.8, at 462 (2d ed. 1993) ("[T]he plaintiff effects the rescission, and the court gives a judgment

for restitution if that is needed.").

23
24
25

32. In the case at bar, the Plaintiff's claim does not ask the District Court for
rescission. It is grounded in the creditor's failure to "effect" rescission procedures. As the

26

Consumer Financial Protection Bureau (CFPB) explained to multiple circuit courts, rescission at

27

law under TILA is the result of an action already taken without the aid of a court. The remedy of

28
14

VOL. 2, Page 084

Case: 19-15926, 08/08/2019, ID: 11391029, DktEntry: 11-2, Page 86 of 202

A32

Case 2:18-cv-02244-JAM-AC Document 21 Filed 02/21/19 Page 15 of 123
1

"rescission" is an avoidance of a transaction, the extinguishment of an agreement such that in

2

contemplation of law, it never existed. 17A Am.Jur.2d Contracts § 600 (1991 ). It is a remedial

3

right to which an aggrieved party is entitled with or without resort to a tribunal. The advantage of

4

rescission at law as an alternative to enforcement of a contract, outweigh its costs in terms of
5
6

contractual instability and potential forfeiture. TILA contemplates rescission as a private non-

7

judicial "self-enforcing mechanism" that imposes "all burdens on the creditor" once notice is

8

given. Williams v. Homestake Mortg. Co., 968 F.2d 1137, 1139-1141 (11th Cir. 1992); see

9

Peterson v. Highland

10

11
12

13
14
15
16

Music, Inc., 140 F .3d 1313, 13 22 (9th Cir. 1998) ( after a party "has effected the rescission'' by
notice, "subsequent judicial proceedings are for the purpose of confirming and enforcing that
rescission")
33. Plaintiff exercised his rescission by timely sending notice. 15 U.S.C. § 1635(a). The
sale or transfer of a home after exercising rescission rights does not defeat any consumer's
rescission right if the rescission unwinding procedure was not completed because the creditor

17
failed to comply with its TILA section 1635(b) obligations.
18
19

34. Plaintiff's rescission renders any subsequent assignment of the note and deed of trust

20

void. Because rescission was completed prior to the alleged transfer of title to BONY, BONY did

21

not obtain title to Plaintiff's property and therefore did not have any right, title and interest upon

22

which to conduct a foreclosure sale. Without title, BONY cannot maintain a detainer action

23
24

against Plaintiff.

FACTUAL ALLEGATIONS

25
35. The material facts in this case are not in dispute. Randhawa executed a deed of trust
26

28

(mortgage) on the Property, in favor of Mortgage Electronic Registration System, as nominee for
Fremont. The deed of trust secured a $405,848 note from Randhawa to Fremont. The third party
15

VOL. 2, Page 085

Case: 19-15926, 08/08/2019, ID: 11391029, DktEntry: 11-2, Page 87 of 202

27

A33

Case 2:18-cv-02244-JAM-AC Document 21 Filed 02/21/19 Page 16 of 123
1

for whom Fremont was acting was never disclosed and is unclear at this time. On or about April

2

2004 Fremont initiated a foreclosure procedure.

3

36. On or about July 23, 2004, Plaintiff was approached and solicited at his home in the

4

evening by Elauria who represented that he was an agent and manager of the Princes Properties.

5
3 7. Elauria represented to Plaintiff that he and his company had the ability to "save"

6

7

Plaintiff from "losing his home" at the foreclosure sale and solicited Plaintiff to enter into what he

8

described to be an arrangement whereby Plaintiff would stay in the house and get back on his feet

9

financially, by transferring the Property to his company for 60 days after which time his company

10
11

would transfer the property back to Plaintiff. Elauria specifically represented to Plaintiff that
Princess Properties knew how to "arrange :financing so you can keep your house" and assured

12
Plaintiff that while Plaintiff would have to transfer title to Princess Properties, Plaintiff would still
13
14
15

16
17
18

have possession of the house and Princess Properties will transfer title back to him within 60
days.
38. At all times when Elauria was representing to Plaintiff that Plaintiff would get title to
theProperty back in 60 days, Elauria led Plaintiff to believe that it would be Princess Properties
itself and its investment partners who would be providing funding to refinance the mortgage loan

19
on the Property that was in foreclosure.
20
21

39. On or about August 3, 2004, in reliance upon the representations and promises of

22

Elauria and Princess Properties that Plaintiff would get title back to the subject property within 60

23

days, Plaintiff signed a Grant Deed transferring title of the Property to Princess Properties, which

24

Grant Deed was recorded by Princess Properties on August 4, 2004, A true and correct copy of

25

the Grant deed Plaintiff signed under the fraudulent inducement of Princess Properties is attached

26

as Exhibit "B".

27
40. On or about September 10, 2004 Princess Properties invited the Plaintiff to its office to
28
16

VOL. 2, Page 086

Case: 19-15926, 08/08/2019, ID: 11391029, DktEntry: 11-2, Page 88 of 202

A34

Case 2:18-cv-02244-JAM-AC Document 21 Filed 02/21/19 Page 17 of 123
1

sign certain loan documents. Plaintiff and his spouse signed a "Promissory Note (Installment

2

Land Contract)" for $750,000 in which the Princess Properties was the lender and Iqbal and

3

Gurdev Randhawa were the borrowers. A true and correct copy is attached as Exhibit "C". At

4

the same time, Underwood on behalf of the Princess Properties executed and provided Plaintiff

5
6

with a copy of the notarized Grant Deed from Princess Properties to Iqbal and Gurdev Randhawa,

7

purporting to transfer title in the Property from Princess Properties back to Plaintiff, a true and

8

correct copy of which is attached as Exhibit "D".

9
10

41. Plaintiff, in reasonable reliance thereon, was led to believe that the grant deed dated
September 10, 2004, was performing the promise previously made by Elauria and Princess

11
Properties that title to the Property would be transferred back to Plaintiff within 60 days. Plaintiff
12
13
14
15

was fraudulently induced to enter the transaction with Princess Properties. Instead of being
"rescued" the Plaintiff not only lost his Property but also equity in his home.
42. Prior to Plaintiff signing the loan documents on September 10, 2004 to Princess

16

Properties, Aster, the Owner of Real Opportunity, executed two deeds of trust on the Property in

17

favor of Sierra Pacific attached hereto as Exhibits "E" and ''F". The two deeds of trust named

18

Sierra Pacific "lender "and naming MERS as "Mortgagee" or "Beneficiary" and acting solely as

19
nominee for lender or lender's successors and assigns.
20
21

43. At no time before Plaintiff signed the loan documents on September 10, 2004, did

22

Real Opportunity and/or its predecessor Princess Properties disclose to Plaintiff that they had

23

already caused Aster to execute two deeds of trust on the Property.

24
25
26

44. On or about October 5, 2004, Princess Properties caused to be recorded a Grant Deed
transferring title in the Property from Aster to Princess Properties. See "Grant Deed Recorded
October 5, 2004 from Aster to Princess Property" attached hereto as Exhibit "G". At no time did

27

28
17

VOL. 2, Page 087

Case: 19-15926, 08/08/2019, ID: 11391029, DktEntry: 11-2, Page 89 of 202

A35

Case 2:18-cv-02244-JAM-AC Document 21 Filed 02/21/19 Page 18 of 123
1

Defendant Real Opportunity and its predecessor Princess Properties disclose to Plaintiff such

2

transfer of title back to Princes Properties. The purpose of such transfer of title from Aster to

3

Princess Properties was to further the conspiracy between Real Opportunity and its predecessor

4

Princess Properties to obfuscate the misrepresentation and non-disclosures committed by Real

5
6

Opportunity and its predecessor Princess Properties when they delivered on September 10, 2004,

7

the Grant Deed purporting to transfer title from Princess Properties back to Plaintiff at a time

8

when Princess Properties in truth held no title to the Subject Property.

9

10
11

45. Aster, who was the owner of the Real Opportunity has acknowledged that he was paid
$5,000 by Princess Properties for allowing Princess Properties to use his name and credit to
obtain two purchase money mortgages from Sierra Pacific Mortgage Company, falsely

12
representing that Aster intended to live in the Subject Property.

13
14

46. BONY and its predecessor Sierra Pacific Mortgage Company, aided and abetted the

15

fraud and deceit of Real Opportunity and its predecessor Princess Properties by knowingly

16

accepting the fraudulent loan application provided by said entities, without such lender

17

performing the required diligent investigation and underwriting as required by the applicable

18

lending laws, regulation and despite the evidence inherent in the documentation provided to said

19
lender because such lender was motivated by its strategy to accept as many subprime mortgage
20
21
22

loans as it could in order to sell asset-backed securities, where the pooling and sale of the
fraudulent loans as pooled securitization would allow such lender and its principals to escape the

23

financial consequences of accepting fraudulent applications and making fraudulent loans

24

brokered by said Defendants.

25

4 7. On or about January 31, 2005 Real Opportunity and its owner Aster recorded a Grant

26
27

28
18

VOL. 2, Page 088

Case: 19-15926, 08/08/2019, ID: 11391029, DktEntry: 11-2, Page 90 of 202

A36

Case 2:18-cv-02244-JAM-AC Document 21 Filed 02/21/19 Page 19 of 123
1

Deed transferring title to the Property from Princess Properties to Real Opportunity Investments,

2

LLC. Such transfer of title to the Property was made without Plaintiff's written consent as

3

required by Civil Code section 1695.6(e), the Home Equity Sales Act.

4

48. In early 2005, demands were made upon Plaintiff by Real Opportunity and Aster to

5
6

7

start making payments to Real Opportunity Investments, LLC, attention Walter J Aster. (See
"Notice of Assignment oflnterest & Obligations" attached hereto Exhibit "H".)

8

49. Being alarmed with all these developments, Plaintiff called Princess Properties to

9

inquire about their status as to payments being diverted to the Real Opportunity Investments.

10

Plaintiff received a phone call back from the Principal of Princess Properties, Nick Martin, who

11
represented in response to Plaintiff's question that "there is nothing wrong" and that someone
12
would get back to Plaintiff.
13
50. Approximately a week later Plaintiff received a phone call from Aster. Aster advised

14
15

Plaintiff that he had taken over Princess Properties contract with Plaintiff, that he had all the

16

responsibilities and obligations that Princess Properties had, that "I am Princess Properties Now,"

17

and everything (related to Princess Properties) is the same as it was with Princess Properties. (See

18

Exhibit "H".)

19
51. During all the transactions with Princes Properties and its successor Real
20
21

Opportunities Investments, LLC, no Truth-In- Lending Act disclosures or other documents were

22

provided to the Plaintiff as required under the Truth-In-Lending Act ("TILA"). In addition,

23

Princess Properties and its officers provided a signed and notarized Grant Deed purporting to

24

transfer title back to Plaintiff to deceive Plaintiff into thinking the Property had been conveyed to

25

him.

26

52. Because of the acts and omissions of all persons affiliated with Defendants as alleged

27
herein, on or about August 31, 2005, Plaintiff sent a Notice of Rescission pursuant to Civil Code

28
19

VOL. 2, Page 089

Case: 19-15926, 08/08/2019, ID: 11391029, DktEntry: 11-2, Page 91 of 202

A37

Case 2:18-cv-02244-JAM-AC Document 21 Filed 02/21/19 Page 20 of 123

1

§1695 .14 and his rights under the TILA and its interpreting case law to Real Opportunity

2

Investments, successor to the Princess Properties & Associates Acquisitions & Holdings, LLC.

3

Said Notice of Rescission was duly delivered pursuant to 15 USC 1635(a) and Regulation Z, 12

4

C.F.R. § 226.23. It rescinded the Promissory Note (Exhibit C) and Plaintiff therein offered to
5
6

tender the full amount of the rescinded mortgage loan debt conditional only on concurrent return

7

of all consideration received by Princess Properties and its successors Real Opportunity

8

Investments and its owner Aster.

9

10

11

53. The Notice of Rescission was recorded at the Solano County Recorder's Office,
pursuant to State of California Civil Code 1695 .14 (a), (b), (c), on September 1, 2005. A true and
valid copy of the document, titled NOTICE OF RESCISSION UNDER CALIFORNIA CIVIL

12
13

14
15

CODE SECTION 1695.14 is attached to this First Amended Complaint as Exhibit "I" and is
incorporated herein by this reference as though set forth in full.
54. No action was filed by Real Opportunity Investments and/or its predecessor Princess

16

Property opposing Plaintiff's Qualified Notice of Rescission during the following 20 days, nor

17

did Real Opportunity Investments and/or its predecessor Princess Properties comply with their

18

deadline and obligations to terminate the creditor's security interest in the Property title and

19
promissory note.
20
21

55. BONY was well aware of the Notice of Rescission as they have made unsuccessful

22

efforts to expunge the Qualified Notice of Rescission in a prior case. (Minute Order after hearing

23

July 12, 2012, Case number FCS027134, Real Opportunity Investments, LLC v. Randhawa,

24

hereafter "ROI v. Randhawa") attached as Exhibit "J''.

25
26

56. In ROI v. Randhawa, BONY filed a cross complaint seeking (I) declaratory relief; (2)
equitable subrogation; (3) judicial foreclosure; and (4) quiet title. BONY filed a Motion for

27

Summary Judgment. In the Order After Hearing dated December 14, 2012, The Court found that
28

20
VOL. 2, Page 090

Case: 19-15926, 08/08/2019, ID: 11391029, DktEntry: 11-2, Page 92 of 202

A38

Case 2:18-cv-02244-JAM-AC Document 21 Filed 02/21/19 Page 21 of 123

1

2
3

" ... no evidence is currently before the court to establish the standing of either Moving Party, as
assignee or successor in interest of either of the subject loans or deeds of trust." The court found
BONY was unable to show its interest in the loan or deed of trust. The Order further stated:

4

5
6

7
8

"This motion seeks summary judgment ofRandhawa's two causes of action, but not the
causes of action asserted by Moving Parties cross-complaint against Randhawas. The
court grants summary judgment to Moving Parties as to both remaining causes of action
by Randhawas. The remainder of the case, if not dismissed by Moving Parties, will
proceed to trial as scheduled, with the burden on Moving Parties to prove their standing
to assert rights to the subject property as successors in interest to a bona fide
encumbrancer."

9

10
11

57. In light of this ruling, the Defendant BONY dismissed their cross complaint (See

Exhibit "K" (Case number FCS027134, ROI V. Randhawa "Order after Hearing") & Exhibit

"L".)

12

13
14

58. Despite lacking standing in the Property, on or about April 17, 2015, Defendant
BONY recorded a Trustee's Deed Upon Sale, indicating that it was the new "equity purchaser"

15

who had acquired ownership and title to the Property, by purchasing its own sale at auction for

16

the sum of $523,316. A true and correct copy of the document incorporated here by reference,

17

titled Trustee's Deed upon Sale, has been attached as this First Amended Complaint as Exhibit

18

"M" and by this reference is made a part of the First Amended Complaint.

19
59. On or about May 18, 2015, the BONY served Plaintiff with an Unlawful Detainer to
20
21

22
23
24
25
26

evict him from his residence of 15 years.
60. Real Opportunity Investments has since had its status revoked by the Nevada
Secretary of State. Aster has filed for bankruptcy protection.
61. The obvious conclusion is that the Defendants Princess Properties, Elauria,
Underwood and Aster all conspired steal Plaintiff's property through a foreclosure rescue

scam. Further conclusion is that Aster, Sierra and BONY all conspired to fabricate and use

27
documents and instruments, and to record some of them, to lend the appearance that they had the
28
21

VOL. 2, Page 091

Case: 19-15926, 08/08/2019, ID: 11391029, DktEntry: 11-2, Page 93 of 202

A39

Case 2:18-cv-02244-JAM-AC Document 21 Filed 02/21/19 Page 22 of 123
1

right to foreclose upon the Property. This left the actual owner of the debt unsecured by either a

2

note or mortgage.

3

a.

Further some of those documents purported to be instruments of transfer relating to

4
"transactions" that had no existence in real life and were obtained through fraud.
5
6

7

b.

All of such instruments are now void by operation of law.
62. As a direct and proximate result of the above illegal actions the Plaintiff has lost his

8

home and has been obliged to seek and pay for the services of legal counsel and to become

9

indebted for substantial fees and expenses in excess of$25,000 plus court costs and further fees

10

as this saga continues for which the Defendants should be liable, jointly and severally.

11
63. The Plaintiff suffers further damage from the cloud on his legal title to the subject
12
property, preventing the sale, refinancing and quiet enjoyment of the land for which the
13
14
15

Defendants should be liable jointly and severally.
64. The Plaintiff suffers further damages by continuing doubt and insecurity over their

16

right to own and remain on the property causing grievous emotional distress for which the

17

Defendants should be liable jointly and severally.

18

65. At all times material hereto each of the Defendant owed a duty of fair dealing and

19
reasonable and accurate disclosure, in accordance with applicable common law, Federal and State
20
21

22
23

law, rules and procedures including but not limited to the Truth in Lending Act and the Federal
Debt Collection Procedures Act.
66. Instead each Defendant was a party to a scheme in which (1) Princess Properties,

24

Elauria, Underwood and Aster conspired with each other to defraud Plaintiff and obtain title to

25

his home; Sierra and BONY was a party to a scheme in which the identity of the owner of the

26

debt was actively concealed and continues to be concealed, and (2) parties were engaged to

27
execute and record false and misleading documents of alleged transfer that never actually

22
VOL. 2, Page 092

Case: 19-15926, 08/08/2019, ID: 11391029, DktEntry: 11-2, Page 94 of 202

28

A40

Case 2:18-cv-02244-JAM-AC Document 21 Filed 02/21/19 Page 23 of 123
1

occurred, upon which the Plaintiff reasonably relied and which was caused by the breaches of

2

duty by each of the defendants, individually, jointly and severally.

3

COUNT I -QUIET TITLE

4
67. The Plaintiff incorporates by this specific reference paragraphs 1-66 of this complaint
5
6

and paragraphs as if fully restated herein.
68. California law requires the following for a quiet title action:

7
8

9
10

a description of the property that is the subject of the action.
the title of the plaintiff as to which a determination of quiet title is sought.
the adverse claims to plaintiff's title.
the date as of which the determination is sought.
a prayer for the determination of plaintiff's title against the adverse claims.

11

69. The Plaintiff is in possession of the property.

12
70. The Deeds of Trust to Fremont, Sierra Pacific and BONY; the assignment from Sierra
13
14

Pacific to BONY; and the Trustee's Deed to BONY are still recorded against the Plaintiff's

15

Property. Each of the documents referenced in this paragraph is a sham. None of the documents

16

reflect any actual monetary transactions that of necessity is the core of any loan contract.

17
18

71. The Grant Deed from Plaintiff to Princess Properties was obtained through fraudulent
means.

19
72. The Grant Deed from Princess Properties to Aster was executed to continue the fraud
20
21
22
23
24
25
26

against Plaintiff and to obtain title to Plaintiff's Property through fraudulent means.
73. The two deeds of trust from Aster to Sierra were a continuation of the fraud against
Plaintiff.
74. The Trustee's Deed to BONY naming BONY successor to JPMorgan Chase was a
further continuation of the fraud against Plaintiff to obtain title to Plaintiff's Property and is
without any current legal effect or existence.

27
28
23

VOL. 2, Page 093

Case: 19-15926, 08/08/2019, ID: 11391029, DktEntry: 11-2, Page 95 of 202

1.
2.
3.
4.
5.

A41

Case 2:18-cv-02244-JAM-AC Document 21 Filed 02/21/19 Page 24 of 123
1
2

3

75. Plaintiff sent a Notice of Rescission and BONY was well aware of the Notice of
Rescission as they have made unsuccessful efforts to expunge the Qualified Notice of
Rescission.

4
76. Therefore, each of the documents referenced in this Count is without any current legal
5
6
7

effect or existence.
77. Notwithstanding the above, the Defendants assert an interest in the property

8

preventing removal of the encumbrance and related documents and further preventing sale or

9

refinancing of the property.

10
11

78. Accordingly, while the Plaintiff owns the Property, by operation oflaw, the Plaintiff
remain in doubt as to his rights, specifically the scope of his ownership in fee simple absolute of

12

the subject property.
13

14

WHEREFORE, the Plaintiff requests this Honorable Court enter an order declaring the rights of

15

the parties, enjoining the defendants from asserting any interest in the subject property or loan,

16

and order Defendants, and their successors and assigns, to file instruments that release all claims

17

to the subject property from Defendants and their successor and assigns, including their right to

18

administer or service a loan that no longer exists and order all Defendants, and their successors

19
and assigns, to disclaim and vacate all claims and for an issuance of a writ of possession or
20
21
22

23
24

25
26

restitution to the sheriff or other proper officer of Solano County, State of California.

COUNT II - FRAUD AS TO ALL DEFENDANTS
79. The Plaintiff incorporates by this specific reference paragraphs 1-66 of this complaint
as if fully restated herein.
80. The elements for fraud in California are:
1. That Defendant represented to Plaintiff that a fact was true;

27
2. That Defendant's representation was false;

28
24

VOL. 2, Page 094

Case: 19-15926, 08/08/2019, ID: 11391029, DktEntry: 11-2, Page 96 of 202

A42

Case 2:18-cv-02244-JAM-AC Document 21 Filed 02/21/19 Page 25 of 123
1

2
3

3. That Defendant knew that the representation was false when it was made, or that it was
made recklessly and without regard for its truth;
4. That Defendant intended that Plaintiff] rely on the representation;

4
5. That Plaintiff reasonably relied on Defendant's representation;

5

6
7

8
9
10

6. That Plaintiff was harmed; and
7. That Plaintiff's reliance on Defendant's representation was a substantial factor in
causing harm to the Plaintiff
81. Fremont intentionally and deliberately and with forethought defrauded the Plaintiff
and the public records with the proffer and filing of fraudulently constructed disclosure and loan

11
documents that later became part of a group of false foreclosure documents.

12
82. Princess Properties then swooped in with its fraudulent foreclosure rescue scheme
13

14

whereby Elauria, as a representative of Princess Properties, knowingly made false statements to

15

Plaintiff in order to coerce Plaintiff into executing a grant deed to Princess Properties with the

16

false promise of Princess Properties, within 60 days, executing a Grant Deed back to Plaintiff.

17
18

83. Princess Properties, unbeknown to Plaintiff, signed a Grant Deed from Princess
Properties to Aster.

19
84. Aster obtain two purchase money mortgages from Sierra Pacific after which time

20
21

Princess Properties invited the Plaintiff to its office to sign certain loan documents. Plaintiff and

22

his spouse signed a 'Promissory Note (Installment Land Contract)" for $750,000 in which

23

Princess Properties was the lender and Iqbal and Gurdev Randhawa were the borrowers.

24
25

26

85. At no time prior to Plaintiff signing the Grant Deed to Princess Properties did Real
Opportunity or its predecessor Princess Properties disclose to Plaintiff that Aster had already
signed two purchase money mortgages to Sierra Pacific.

27
28
25

VOL. 2, Page 095

Case: 19-15926, 08/08/2019, ID: 11391029, DktEntry: 11-2, Page 97 of 202

A43

Case 2:18-cv-02244-JAM-AC Document 21 Filed 02/21/19 Page 26 of 123

1
2
3

86. Aster acknowledged that he was paid $5,000 by Princess Properties for allowing
Princess Properties to use his name and credit to obtain two purchase money mortgages from
Sierra Pacific, falsely representing that Aster intended to live in the Property.

4

87. BONY and its predecessor Sierra Pacific, aided and abetted the fraud and deceit of
5
6

Real Opportunity and its predecessor Princess Properties by knowingly accepting the fraudulent

7

loan application documents provided by said entities, without performing the customary required

8

diligent investigation and underwriting as required by applicable lending laws, regulations and

9

despite evidence inherent in the documentation provided to them because they were motivated by

IO

11

its strategy and business model to accept as many subprime mortgage loans as possible in order to
sell asset-backed securities where the pooling and sale of the fraudulent loans as pooled

12
13
14

15

securitization would allow such lender and its principals to escape the financial consequences of
accepting fraudulent applications and making fraudulent loans.
88. The Defendants jointly and severally, intentionally and deliberately and with

16

forethought defrauded and continue to defraud the Plaintiff, the Superior Court for the County of

17

Solano, CA and the public record with the proffer and filing of the fraudulently obtained Grant

18

Deeds, constructed mortgage assignment, foreclosure litigation related documents, summary

19

judgment motion, opposition affirmation and briefs prepared and filed with the Superior Court for
20
21
22
23

the County of Solano, CA along with documents in support of their detainer action against
Plaintiff.
89. Further, the Defendants caused various correspondence and notices to be issued,

24

published and/or recorded directed to the Plaintiff as though the authority to issue such

25

documents was present and the content of the documents was authentic and true. Each of those

26

notices and correspondence contained false and misleading statements as to the status and owner

27

of the debt.

28
26
VOL. 2, Page 096

Case: 19-15926, 08/08/2019, ID: 11391029, DktEntry: 11-2, Page 98 of 202

A44

Case 2:18-cv-02244-JAM-AC Document 21 Filed 02/21/19 Page 27 of 123
1

2
3

90. All such representations were false and intended to deceive the Plaintiff to his
detriment. All such false representations were designed to mislead any court that reviewed the
process of the subject foreclosure.

4

91. A primary step in Defendants' plan to illegally obtain possession of Plaintiff's

5
6

property, starts with the fraudulent actions and statements of Princess Properties, its agents,

7

servants, and/or employees; the fraudulent application of Aster to Sierra Pacific; Sierra Pacific

8

knowingly accepting the fraudulent loan application documents provided by said entities, without

9

performing the required diligent investigation and underwriting as required by applicable lending

10

laws, regulations and despite evidence inherent in the documentation provided to them; Sierra's

11

and BONY's creation, recording, and making use of the false assignment in the public record to
12
13

14
15

superficially establish mortgage and note ownership in order to foreclose and file a detainer
action against Plaintiff by false claims of standing and capacity to sue.
92.Defendants, in continuing conspiracy together, had full "knowledge" their "material

16

representation" of mortgage and note ownership was "false" and was "made with knowledge of

17

its falsity and the intention to deceive" and that the Plaintiff and the Court would "justifiably rely

18

upon" Defendants' false claim wherein the true object was the illegal divestment of the Plaintiff's

19
property.
20
21

93.None of the Defendants had any connection with the Property at all except for their

22

fraudulent scheme and phony documents created, recorded and used in litigation by said

23

Defendants to support their illegitimate claims against the Plaintiff including the cross-complaint

24

filed by BONY in the Superior Court of California, County of Solano, CA seeking ( 1) declaratory

25

relief; (2) equitable subrogation; (3) judicial foreclosure; and (4) quiet tile, which cross-complaint

26

was dismissed by BONY.

27
28

27
VOL. 2, Page 097

Case: 19-15926, 08/08/2019, ID: 11391029, DktEntry: 11-2, Page 99 of 202

A45

Case 2:18-cv-02244-JAM-AC Document 21 Filed 02/21/19 Page 28 of 123
1

2
3

94. The Plaintiff reasonably relied upon each and every material misrepresentations as
described above to his detriment.
95. The Plaintiff, deprived of vital information that, if known, would have resulted in

4

different courses of action, was induced and ultimately compelled by Defendants'

5
6

misrepresentations to sign documents of transfer and to litigate a cross-complaint action that was

7

illegitimately commenced, and was maintained and supported against the Plaintiff by said

8

Defendants, who also used fraudulently constructed and forged documents to falsely assert that a

9

true, real and viable party was prosecuting the action against the Plaintiff.

10
11

96. As a direct and proximate result of the false representations by Defendants, the
Plaintiff has suffered economic and emotional damages.

12
13
14

WHEREFORE, based upon the foregoing, the Plaintiff is entitled to judgment that all of the

Defendants have defrauded the Plaintiff. As a direct result of Defendants' fraud, the Plaintiff has

15

been damaged and seeks damages in the amount of $1,000,000.00, an award of attorney's fees, to

16

the extent allowable by law and costs, and for all other relief this Honorable Court finds

17

appropriate.

18

COUNT ill -CONSPIRACY TO COMMIT FRAUD AS TO ALL DEFENDANTS

19
97. The Plaintiff incorporates by this specific reference all preceding introductory
20
21

22

paragraphs of this complaint and paragraphs 1-66 as if fully restated herein.
98. An agreement was made by and between all Defendants to deceive both the Plaintiff

23

and the California Superior Court of California, County of Solano, and to defraud the public

24

record thereby breaking Federal and California law.

25
26

99. As demonstrated by Defendants' creation and use of fraudulently obtained Grant
Deeds, fraudulent purchase money mortgages and fraudulently constructed and forged mortgage

27

28
28
VOL. 2, Page 098

Case: 19-15926, 08/08/2019, ID: 11391029, DktEntry: 11-2, Page 100 of 202

A46

Case 2:18-cv-02244-JAM-AC Document 21 Filed 02/21/19 Page 29 of 123
1

assignment and other foreclosure related documents, Defendants have colluded with each other to

2

achieve their illegal goals by equally illegal means.

3

100. Defendants Sierra Pacific and BONY maintained their illegitimate Superior Court of

4
Solano County cross-claim action against the Plaintiff and subsequent foreclosure action using

5
6

phony documents. Defendant BONY maintained its eviction action against the Plaintiff using

7

phony documents. MERS facilitated the actions of Defendants by helping to create phony

8

transfers of the mortgages. Defendants clearly intended to break the law in a manner that required

9

Defendants to act as a single cohesive unit where they either created or presented fraudulently

10

11

obtained documents along with phony documents and paperwork necessary to pursue foreclosure
and eviction.

12
101. Defendants have demonstrated a corrupt pattern of overtly criminal conduct and have
13
14

maintained its foreclosure and eviction actions against the Plaintiff and tens of thousands in

15

California and throughout the United States under the outrageously fraudulent and deliberately

16

misleading and contrived circumstances as set forth in detail in this First Amended Complaint.

17

102. The Plaintiff reasonably relied upon each and every material misrepresentations as

18

described above to his detriment.

19
103. Plaintiff, deprived of vital information that, if known, would have resulted in
20
21

different courses of action starting with the execution of the original note and deed of trust to

22

Fremont, was induced and ultimately compelled by Defendants' misrepresentations to litigate an

23

action that was illegitimately commenced, and is maintained and supported against the Plaintiff

24

by said Defendants, who also used fraudulently constructed and forged documents to falsely

25

assert that a true, real and viable plaintiff party was prosecuting the cross-complaint and eviction

26

action against the Plaintiff.

27
28

29
VOL. 2, Page 099

Case: 19-15926, 08/08/2019, ID: 11391029, DktEntry: 11-2, Page 101 of 202

A47

Case 2:18-cv-02244-JAM-AC Document 21 Filed 02/21/19 Page 30 of 123

I

2
3

104. As a direct and proximate result of the false representations by Defendants, the
Plaintiff suffered economic and emotional damages.
WHEREFORE, based upon the foregoing, the Plaintiff is entitled to judgment that all Defendants

4

have conspired to commit fraud upon the Plaintiff. As a direct result of Defendants' conspiracy to

5
6

commit fraud, the Plaintiff has been damaged and seek damages in the amount of$1,000,000.00,

7

an award of attorney's fees and costs, and for all other relief this Honorable Court finds

8

appropriate.

9
IO

11

COUNT IV-FRAUDULENT MISREPRESENTATION AS TO ALL DEFENDANTS
I 05. The Plaintiff incorporates by this specific reference all preceding paragraphs of this
complaint and paragraphs 1-66 as if fully restated herein.

12
13
14
15
16
17

18

106. At all times material hereto, each of the Defendants had a duty of fair dealing and
honesty, together with a duty to comply with Federal and State lending laws, rules and regulations
and Federal and state collection statutes.
a. Each of the defendants knew, must have known or should have known that the
documents and representations proffered in support of their foreclosure rescue scheme,
foreclosure and eviction attempts were false.

19
b. Each of them proceeded to use said false documents and information for their own

20
21

22

purposes and for their own benefit.
107. Defendants have misrepresented their ownership of the Plaintiff's Property and their

23

ownership, administrative rights, and authority to service, collect or enforce the subject debt by

24

falsely representing interests in the Plaintiffs Property, mortgage and note executed in favor of

25

Fremont as well as said Defendants' interest in the mortgage and note executed in favor of Sierra

26

Pacific, their standing and capacity to sue and the true status of the Plaintiffs ownership in the

27
Property and deed of trust and note.

28
30

VOL. 2, Page 100

Case: 19-15926, 08/08/2019, ID: 11391029, DktEntry: 11-2, Page 102 of 202

A48

Case 2:18-cv-02244-JAM-AC Document 21 Filed 02/21/19 Page 31 of 123

1

2
3

108. The Plaintiff, deprived of vital information that, if known, would have resulted in
different courses of action starting with the execution of the original note and deed of trust, was
induced and ultimately compelled by Defendants' misrepresentations to sign a Grant Deed

4

allegedly transferring the Property to Princess Properties, litigate actions that was illegitimately

5
6

commenced, and is maintained and supported against the Plaintiff by said Defendants, who also

7

used fraudulently constructed and forged documents to falsely assert ownership of Plaintiff's

8

Property and that a true, real and viable plaintiff party was prosecuting the action against the

9

Plaintiff.

10
11

109. Defendants are jointly and severally liable for their own and each other's acts of
fraud by their misrepresentation as well as all damages arising from the same including punitive

12
13
14

15

damages and attorney's fees.
110.The Plaintiff reasonably relied upon each and every material misrepresentations as
described above to his detriment.

16

111. The Plaintiff, deprived of vital information that, if known, would have resulted in

17

different courses of action starting with the execution of the original note and deed of trust to

18

Fremont, was induced and ultimately compelled by Defendants' misrepresentations to litigate an

19
action that was illegitimately commenced, and is maintained and supported against the Plaintiff

20
21

by said Defendants, who also used fraudulently constructed and forged documents to falsely

22

assert that a true, real and viable plaintiff party was prosecuting the cross-complaint and eviction

23

action against the Plaintiff.

24
25

26

112. As a direct and proximate result of the false representations by Defendants, the
Plaintiff suffered economic and emotional damages.

WHEREFORE, based upon the foregoing, the Plaintiff is entitled to judgment that Defendants

27
have defrauded the Plaintiff by misrepresentation. As a direct result of Defendants' fraud by

28
31

VOL. 2, Page 101

Case: 19-15926, 08/08/2019, ID: 11391029, DktEntry: 11-2, Page 103 of 202

A49

Case 2:18-cv-02244-JAM-AC Document 21 Filed 02/21/19 Page 32 of 123
1

misrepresentation, the Plaintiff has been damaged and seeks damages in the amount of

2

$1,000,000.00, an award of attorney's fees and costs, and for all other relief this Honorable Court

3

finds appropriate.

4

COUNT V - NEGLIGENT MISREPRESENTATION

5
6

7
8
9

10

11

113. The Plaintiff incorporates by this specific reference all preceding paragraphs of this
complaint and paragraphs 1-66 as if fully restated herein.
114. At all times material hereto the Defendants had a duty to the public, of which the
Plaintiff is of the class, to properly conduct business in compliance with its duties of fair dealing
and true representations supported by careful due diligence before depriving anyone of their
property or homestead by fraudulent obtained Grant Deeds and forced forfeiture in foreclosure

12
and a detainer action.

13
14
15
16
17
18

115. Specifically, they had a duty to control the use of their name such that their names
were not used to advance a fraudulent or illegal enterprise.
116. The granting of a purchase money mortgage to Aster by Sierra Pacific and then
claiming they were the owners and holders of Aster's Note were a false statements intended to
induce reliance upon it by the Plaintiff and the trial judge.

19
117. Fremont, Sierra and BONY were negligent in allowing their names to be presented as
20
21

owners or holders of a mortgage and for making the proffering of false evidence statements

22

concerning the ownership of the Note and Deed of trust because they knew or should have known

23

that the Plaintiff's and the Aster loans were never properly assigned to them.

24
25

26

118. Fremont, Sierra Pacific and BONY caused or allowed their names to be utilized by
others in an attempt to legitimize an otherwise illegitimate foreclosure action as can be further
demonstrated by the assignments recorded in the public records of Solano County, California

27
The people whose names were affixed to the alleged assignments have never been shown to be

28
32

VOL. 2, Page 102

Case: 19-15926, 08/08/2019, ID: 11391029, DktEntry: 11-2, Page 104 of 202

A50

Case 2:18-cv-02244-JAM-AC Document 21 Filed 02/21/19 Page 33 of 123
1

legally authorized to sign any document on behalf of MERS, Sierra or BONY Their marks were

2

placed on these document which purport to be assignments of deed of trust and note, without

3

knowledge nor a corporate seal.

4

119. Defendants knew, or should have known that and subsequently abandoned the fake
5
6

and fraudulently obtained documents that were false and misleading designed only to induce the

7

trier of fact and the Plaintiff to rely on the statements that Sierra and then BONY were the owner

8

of Plaintiff's Property and the holder of the debt, note or deed of trust from Aster and for the sole

9

purpose of establishing the element of legal "standing" at the cost of the truth.

10
11

120. BONY knew, or should have known, that the mark placed on the assignment which
purported to assign the Aster's deed of trust and note to BONY was executed without knowledge

12
13
14
15

or corporate seal and was creed for the sole purpose of establishing the element of legal
"standing" in order for BONY to pursue an eviction action against the Plaintiff.
121. As a direct result of Fremont being falsely described as the named owner of the debt

16

in the original foreclosure action against Plaintiff, and making the representations that it made,

17

the Plaintiff suffered damages.

18

122. As a direct result of BONY being falsely described as the named owner of Plaintiff's

19
Property and eviction action against Plaintiff, and making the representations that it made, the
20
21

22

Plaintiff suffered damages.
123. The Plaintiff's proximate damages consist of attorney's fees and costs; a cloud of

23

title to the Plaintiff's, damage to credit reputation due to the filing of a foreclosure; emotional and

24

physical damages to themselves caused by loss of one's home and threatened eviction and

25

emotional turmoil.

26

124.The Plaintiff, deprived of vital information that, if known, would have resulted in

27
different courses of action starting with the execution of the original note and deed of trust to
33

VOL. 2, Page 103

Case: 19-15926, 08/08/2019, ID: 11391029, DktEntry: 11-2, Page 105 of 202

28

A51

Case 2:18-cv-02244-JAM-AC Document 21 Filed 02/21/19 Page 34 of 123
1

Fremont, was induced and ultimately compelled by Defendants' misrepresentations to litigate

2

actions that were illegitimately commenced, and were maintained and supported against the

3

Plaintiff.

4

WHEREFORE, based upon the foregoing, the Plaintiff is entitled to judgment that Defendants
5
6

have defrauded the Plaintiff by misrepresentation. As a direct result of Defendants' fraud by

7

misrepresentation, the Plaintiff has been damaged and seeks damages in the amount of

8

$1,000,000.00, an award of attorney's fees and costs, and for all other relief this Honorable Court

9

finds appropriate.

10

COUNT VI - NEGLIGENT SUPERVISION

11
125. The Plaintiff incorporates by this specific reference all preceding paragraphs of this
12
complaint and paragraphs 1-66 as if fully restated herein.
13
14

126. At all times material hereto the Defendants had a duty to the public, of which

15

Plaintiff is of the class, to properly conduct business in compliance with its duties of fair dealing

16

and true representations supported by careful due diligence before depriving anyone of their

17

property or homestead by forced forfeiture in foreclosure.

18

127. Specifically, BONY and its predecessor Sierra Pacific Mortgage Company had a

19
duty to required diligent investigation and underwriting as required by the applicable lending
20
21
22

laws, regulation.
128. Sierra and BONY knew, or should have known these facts, yet allowed the

23

fraudulent application document to be executed and used for Aster to obtain two purchase money

24

mortgages and then subsequently foreclose and seek eviction of the Plaintiff.

25
26

129. Sierra Pacific and MERS, caused to be prepared a fraudulent purported Assignment
of Deed of trust and note from Sierra Pacific to BONY.

27
28
34

VOL. 2, Page 104

Case: 19-15926, 08/08/2019, ID: 11391029, DktEntry: 11-2, Page 106 of 202

A52

Case 2:18-cv-02244-JAM-AC Document 21 Filed 02/21/19 Page 35 of 123
1

2
3

130. The fraudulent assignment was prepared and executed in order to create the false
illusion that all subsequent assignees owned or owns the deed of trust and note. The basis for this
allegation of the creation of a fraudulent assignment are the following facts:

4
a. No corporate resolution has ever been made naming or appointing any of the signers of

5
6

7

the purported Assignments showing authority to act in a representative capacity.
b. Defendants knew, or should have known these facts, yet allowed the fraudulent

8

document purporting to be assignments to be drafted and executed in order to seek to foreclose

9

and eviction on the property owned by the Plaintiff.

10

11

c. The alleged assignment was designed to create the illusion of standing to allow BONY
to claim nominal ownership of the loan even though the note and the deed of trust were never

12
sold to them and to allow BONY to claim title in order to maintain an eviction action against the
13
14

Plaintiff.

15

d. The marks were placed on the documents which purported to assign the note and

16

mortgage, with Defendants aware of the fact that the documents were not duly executed pursuant

17

to California law.

18

131. Defendants had actual and/or constructive knowledge of the negligence of its

19
employees and/or agents Defendants failed to intercede to Plaintiff's interest from such harm.

20
21

132. Defendants had actual and/or constructive knowledge of the negligence of its

22

employees and/or agents and Defendants failed to intercede to protect Plaintiff's interest from

23

such harm.

24
25

26

133. The actions of Defendants and their employees and/or agents constitute negligence
and/or gross negligence.
134. The Plaintiff reasonably relied upon each and every material misrepresentations as

27
described above to his detriment.

28
35
VOL. 2, Page 105

Case: 19-15926, 08/08/2019, ID: 11391029, DktEntry: 11-2, Page 107 of 202

A53

Case 2:18-cv-02244-JAM-AC Document 21 Filed 02/21/19 Page 36 of 123
1

2
3

135. The Plaintiff, deprived of vital information that, if known, would have resulted in
different courses of action starting with the execution of the original note and deed of trust to
Fremont, was induced and ultimately compelled by Defendants' misrepresentations to litigate

4

actions that were illegitimately commenced, and were maintained and supported against the

5
6
7

Plaintiff.
136. As a direct and proximate result of the negligence and/or gross negligence of the

8

Defendants the Plaintiff has suffered substantial financial injuries including the loss of title and

9

possession to their Property.

10

11

WHEREFORE, based upon the foregoing, the Plaintiff is entitled to judgment that Defendants
have defrauded the Plaintiff by misrepresentation. As a direct result of Defendants' fraud by

12
misrepresentation, the Plaintiff has been damaged and seeks damages in the amount of

13
14
15

$1,000,000.00, an award of attorney's fees and costs, and for all other relief this Honorable Court
finds appropriate.

16

COUNT VII - BREACH OF 15 U.S. C. §1635 and Declaratory, Injunctive and

17

Supplemental Relief

18

13 7. The Plaintiff incorporates by this specific reference all preceding introductory

19
paragraphs of this complaint and paragraphs 1-66 as if fully restated herein.
20
21

22
23
24
25
26

138. On August 31, 2005, Plaintiff sent a Notice of Rescission ofloan documents and loan
transaction to Real Opportunity, successor to Princess Properties.
139. The Notice of Rescission was recorded at the Solano County Recorder's Office
pursuant to State of California Civil Code 1695.14(a), (b), (c), on September 1, 2005.
140. In Real Opportunity Investment v. Randhawa, BONY filed a cross complaint seeking
(1) declaratory relief; (2) equitable subrogation; (3) judicial foreclosure, and (4) quiet title.

27
28

36

VOL. 2, Page 106

Case: 19-15926, 08/08/2019, ID: 11391029, DktEntry: 11-2, Page 108 of 202

A54

Case 2:18-cv-02244-JAM-AC Document 21 Filed 02/21/19 Page 37 of 123
1

2

141. BONY filed a Motion for Summary Judgment in Real Opportunity Investment v.

Randhawa.

3

142. In the Order after hearing dated December 14,201, The Court found that " ..no

4
evidence is currently before the court to establish the standing of either Moving Party, as assignee
5
6

7

or successor in interest of either of the subject loans or deeds of trust." The Court found BONY
unable to show its interest in the loan or deed of trust.

8

143. In light of the Court's ruling BONY dismissed its cross complaint.

9

a. It is incontrovertible that the Rescission Notice was received.

10

b. It is incontrovertible that that no creditor initiated any compliance with the three

11
statutory duties imposed by 15 U.S.C. §1635.
12
c. It is incontrovertible that no creditor has ever filed suit seeking to vacate the rescission
13
14

that was effective upon mailing pursuant the aforesaid statute.

15

d. It is incontrovertible that the rescission was effective upon mailing.

16

e. It is incontrovertible that the rescission, by operation of law, made both the note and

17
18

encumbrance void and replaced the old loan contract with a new statutory loan contract in which
the owner of the debt would be paid and the borrower would be able to obtain new financing.

19
f. It is incontrovertible that no party has ever been described by these Defendants as the
20
21

real owner of the debt.
g. Notwithstanding the above, Defendants asserted claims based upon void instruments

22
23

that were fraudulently obtained and created.

24
25

144. More than twenty-days have expired since the receipt of said Notice of Rescission by
Princess Properties.

26

a. No party has complied with the Notice of Rescission as required by 15 U.S. C.

27
§1635.

28
37

VOL. 2, Page 107

Case: 19-15926, 08/08/2019, ID: 11391029, DktEntry: 11-2, Page 109 of 202

A55

Case 2:18-cv-02244-JAM-AC Document 21 Filed 02/21/19 Page 38 of 123

1

2
3

b. No party has filed a lawsuit (as expressed in the Act) seeking to vacate the rescission,
which was effective on the date of mailing and remains effective through the date of filing of this
lawsuit. All rescissions are effective by operation of law upon mailing, whether disputed or not.

4
c. BONY was well aware of the Notice of Rescission as they have made unsuccessful
5
6

efforts to expunge the Qualified Notice of Rescission in a prior case and they have failed to

7

comply with the Statutory duties set forth in 15 U.S.C. §1635 et seq and have failed to file a

8

lawsuit disputing the rescission within their 20 day window of opportunity as also set forth in the

9

TILA Rescission statutes, as aforesaid; Plaintiff does not know if such failure is because the

10

11

original "transaction" was not consummated as described in the loan paperwork (no
consummation), or if Defendant is simply ignoring applicable statutes, Regulation Z, and the

12

13
14

Supreme Court of the United States (Jesinoski v Countrywide).
d. Princess Properties, Sierra Pacific and BONY are in violation of the statutory duties in

15

15 U.S.C. §1635 et seq in failing to comply with the statutory duties and in their continuing use

16

of the void promissory note and the void deed of trust during the foreclosure proceedings,

17

culminating in the eventual sale of Plaintiff's property and the eviction process.

18

145. As set forth in TILA 15 U.S.C.§1635 et seq. (Congressional Act), and the applicable

19

extension of the legislative Act as provided in Regulation Z (from the executive branch of the
20
21

Federal Government), and SCOTUS (representing the third and last branch of government to join

22

in agreement as to the effect of the Notice of Rescission) the loan contract was cancelled by

23

operation oflaw upon mailing the Notice of Rescission, which in turn resulted in the subject note

24

and deed of trust becoming void, as a matter oflaw, by operation oflaw. All three branches of the

25

Federal government consider this to be a settled issue.

26

146. The loan contract was cancelled by operation oflaw on the date of mailing.

27

147. The note was rendered "void" by operation oflaw on the date of mailing.

38
VOL. 2, Page 108

Case: 19-15926, 08/08/2019, ID: 11391029, DktEntry: 11-2, Page 110 of 202

28

A56

Case 2:18-cv-02244-JAM-AC Document 21 Filed 02/21/19 Page 39 of 123
1

2
3

148. The deed of trust was rendered "void" by operation oflaw on the date of mailing.
a. Notwithstanding the above, the Defendant BONY foreclosed on Plaintiff's property.
149. Under TILA, if BONY claims to be a creditor or an authorized representative of the

4
owner of the debt (i.e., a creditor), is required to comply with the rescission within twenty-days of
5
6

receipt by performing three acts:

7

a. Return of the cancelled note;

8

b. Filing in the county records such instrument that would release any encumbrance or lien arising

9

out of the cancelled loan contract; and

10
11

c. Payment of all money received from the Plaintiff, plus interest, attorney fees, costs and other
damages, on behalf of the Plaintiff, and all money paid for fees, commissions or other

12
13
14

compensation in connection with the alleged origination of the loan contract.
150. Not actually being a creditor BONY failed and/or refused to perform duties under

15

TILA. In fact, despite its knowledge of the rescission, BONY continued to ignore the rescission

16

and proceeded to foreclose upon Plaintiff's property in a willful violation of the statute and

17

willful failure to comply with the duties after Notice of Rescission was sent.

18

151. By operation oflaw, the rescission is effective as of the date and time of mailing and

19
no lawsuit is required by the Plaintiff to effectuate the rescission, as this has already been

20
21

completed by operation oflaw which only requires that, in order to be effective, the notice of

22

Rescission must be mailed; and no tender of any payment is required from the Plaintiff as per

23

the specific provisions set forth in the clear and specific statutory scheme for non-judicial

24

cancelation of the loan contract, note and mortgage in 15 U.S.C. §1635.

25

26

152. As of the date of foreclosure of Plaintiff's property there was no note, there was no
deed of trust as a matter of law and there was no loan contract. What was left were statutory

27
duties described above that were completely ignored by the BONY.
28
39

VOL. 2, Page 109

Case: 19-15926, 08/08/2019, ID: 11391029, DktEntry: 11-2, Page 111 of 202

A57

Case 2:18-cv-02244-JAM-AC Document 21 Filed 02/21/19 Page 40 of 123
1

WHEREFORE, Plaintiff respectfully requests this Honorable Court award damages in Plaintiff's

2

favor against Defendants Princess Properties, Sierra Pacific, BONY and MERS for their actual or

3

statutory damages, whichever is greater, and an award of attorney's fees and costs and for all

4
other relief this Honorable Court finds appropriate.
5
6

7

8
9

10

11

COUNT VIII- UNJUST ENRICHMENT AS TO ALL DEFENDANTS
15 3. The Plaintiff incorporates by this specific reference all preceding introductory
paragraphs of this complaint and paragraphs 1-66 as if fully restated herein.
154. The Defendant BONY has completed a foreclosure with the full knowledge that they
obtained title to the Property through fraud and that they were not the owners or the beneficiaries
of the mortgage and note upon which they filed the aforesaid actions.

12
155. It was and remains the deliberate and intentional purpose and goal ofBONY's
13
14

foreclosure proceedings and their eviction proceedings at the outset of their respective actions, to

15

deceive the Plaintiff and the Superior Court of Solano County into believing said Defendants

16

possess bona fide mortgage and note ownership and/or title to the property and therefore the

17

requisite standing and capacity to sue when they did not.

18

156. BONY obtained title through fraudulent means, and then fraudulently constructed,

19
forged, falsely witnessed and/or notarized and filed or caused to be filed, phony and fabricated

20

21
22
23

foreclosure litigation documents for the sole and express purpose of illegally foreclosing upon the
Plaintiff Property and subsequent eviction.
157. Sierra Pacific claimed to be the owner of two notes secured with two deeds of trust

24

from Aster all the while they knew, or should have known, Aster obtained title to the Property by

25

fraudulent means.

26

158. Sierra Pacific claimed they owned the note secured with the deed of trust on the

27
property, when in fact they did not.

28
40

VOL. 2, Page 110

Case: 19-15926, 08/08/2019, ID: 11391029, DktEntry: 11-2, Page 112 of 202

A58

Case 2:18-cv-02244-JAM-AC Document 21 Filed 02/21/19 Page 41 of 123
1

159. The deceptive criminal scheme of the Defendants will unjustly enrich each of the

2

Defendants to the detriment of the Plaintiff through Defendants' receipt of mortgage payment

3

proceeds and foreclosure sale proceeds they were not entitled to receive.

4

160. The Plaintiff was injured relative to his property, lost his cash and personal

5
6

investment in the subject property. Further, the Plaintiff was never informed that, or consented to,

7

his deed of trust, note and property being cross-collateralized and double encumbered as

8

collateral for mortgage backed securities.

9

10
11

161. Upon information and belief, the Plaintiff's monthly mortgage payments made to
Fremont were not due and owing to said Fermont. Fremont did not fund the Plaintiff's mortgage
and they were not the holders in due course of the note.

12
162. Sierra Pacific, having obtained title to Plaintiff's Property through :fraudulent means,
13
14

had no right, title and interest in Plaintiff's Property.
163. Sierra Pacific, having no right, title and/or interest in Plaintiff's Property had no

15
16

authority or right to assign the mortgage and note to BONY.

17

18

164. BONY, having obtained no right, title and/or interest in Plaintiff's Property from
Sierra Pacific had no right to foreclose upon Plaintiff's Property and seek eviction of Plaintiff.

19
165. Defendants had actual and/or constructive knowledge of the negligence of its
20
21
22

employees and/or agents Defendants failed to intercede to protect Plaintiff's interest from such
harm.

23

166. The actions of Defendants and their employees and/or agents constitute negligence

24

and/or gross negligence where the handling of files was improper in allowing employees and/or

25

agents to proceed as though they were the owner of the debt.

26

167. The Plaintiff reasonably relied upon each and every material misrepresentations as

27
described above to his detriment.

28
41

VOL. 2, Page 111

Case: 19-15926, 08/08/2019, ID: 11391029, DktEntry: 11-2, Page 113 of 202

A59

Case 2:18-cv-02244-JAM-AC Document 21 Filed 02/21/19 Page 42 of 123
1

2
3

WHEREFORE, based upon the foregoing, the Plaintiff is entitled to judgment that
Defendants have been Unjustly Enriched. As a direct result of Defendants' Unjust Enrichment,
the Plaintiff have been damaged and seek damages in the amount of $1,000,000.00, an award of

4

attorney's fees and costs, and for all other relief this Honorable Court finds appropriate.
5

COUNT IX - DISGORGEMENT

6

168. The Plaintiff incorporates by this specific reference all preceding introductory

7
8

paragraphs of this complaint and paragraphs 1-66 as if fully restated herein.

9

10
11

169. The Court, in the exercise of its equitable jurisdiction, may award ancillary relief,
including rescission or reformation of contracts, restitution, the refund of monies paid, and the
disgorgement of ill-gotten monies.

12
170. "As a general rule, where money is paid under a mistake of fact, and payment would

13
14

not have been made had the facts been known to the payor, such money may be recovered." Bank

15

of Naperville v. Catalano, 86 Ill. App. 3d 1005, 408 N.E.2d 441,444, 42 Ill. Dec. 63 (Ill. App.

16

1980).

17
18

171. The Plaintiff, had he known the Defendants did not fund any loan to them, would not
have made payment to strangers to the putative subject loan transaction, unless the party was

19
authorized by a disclosed owner of the debt to do so. Defendants continue their concealment of
20
21

22

information that very relevant law and doctrine mandates to be disclosed to a supposed borrower.
172. The Plaintiff mistakenly believed that the Fremont was entitled to collect payments

23

and enforce the subject promissory note. Therefore, once Plaintiff received Notice of Foreclosure

24

from Fremont and he was approached by Princess Properties, Plaintiff fell subject to Princess

25

Properties illegal scheme because he believed that Fremont had the right to foreclose.

26

173. The Defendants caused documents to be executed purporting to state that MERS was

27
acting as an agent of Sierra Pacific and recorded an assignment of the Aster's two deeds of trust
28
42

VOL. 2, Page 112

Case: 19-15926, 08/08/2019, ID: 11391029, DktEntry: 11-2, Page 114 of 202

A60

Case 2:18-cv-02244-JAM-AC Document 21 Filed 02/21/19 Page 43 of 123
1

with the Solano Registry of Deeds from Sierra Pacific to BONY. BONY then initiated

2

foreclosure, foreclosed upon Plaintiff's Property and filed an eviction proceeding. Fremont

3

accepted the Plaintiff mortgage payments, when in fact, the Defendants did not validly hold the

4

mortgage note, and therefore were not entitled to the payments.
5
174. Sierra Pacific obtained $523,316 when it allegedly sold the loan to BONY.

6
7

175. The Plaintiff seek to have an Order entered to disgorge money the Defendants

8

received from him for any alleged debt and any ill-gotten gains from the transaction relating from

9

any alleged debts and the foreclosure and sale of Plaintiff's Property and for an accounting from

10
11

each Defendant relating to the Plaintiff' alleged loan and/or any trading or profits based upon the
subject loan and foreclosure.

12

WHEREFORE the Plaintiff prays this honorable court will enter an order requiring
13
14

disgorgement to them of all money allocable to the Plaintiff derived from ill-gotten gains or

15

unlawful collection, together with attorney fees to the extent permitted by law, court costs,

16

expenses and such other and further relief as the Court may deem just and proper.

17

COUNT X - INJUNCTIVE RELIEF

18
176. The Plaintiff incorporates by this specific reference all preceding introductory

19

20

paragraphs of this complaint and paragraphs 1-66 as if fully restated herein.

21

22

177. The Plaintiff respectfully requests this Honorable Court order an Injunction against
Defendants preventing Defendants from asserting any claim to the debt, note or mortgage or title

23
and requiring them to execute such documentation as may be requested by any lender or title
24
25

insurance company for refinancing or any buyer in the sale of the subject property.
178. Due to the various injuries caused by Defendants detailed in in this Complaint above,

26
27

the Plaintiff is being irreparably harmed by the illegal foreclosure and eviction actions filed by

28

BONY.
43

VOL. 2, Page 113

Case: 19-15926, 08/08/2019, ID: 11391029, DktEntry: 11-2, Page 115 of 202

A61

Case 2:18-cv-02244-JAM-AC Document 21 Filed 02/21/19 Page 44 of 123
1

2
3

179. The Plaintiff has no other remedy at law but to seek the relief requested herein.
Equity favors the Plaintiff as they have no adequate remedy at law.

WHEREFORE the Plaintiff respectfully request this Honorable Court grant them an Injunction

4
preventing the Defendants from asserting any claim to the debt, note or mortgage or title and

5
6

7

requiring them to execute such documentation as may be requested by any lender or title
insurance company for refinancing or any buyer in the sale of the subject property.

PRAYER FOR RELIEF AS TO COUNTS I and X

8
9

10

WHEREFORE, Plaintiff prays for the following relief:
Entry of an order declaring the rights of the parties, to wit:

11
1.

Entry of an order declaring the rights of the parties, enjoining the defendants from

12

asserting any interest in the subject property or loan, and order Defendants to file instruments that
13
14

release all claims to the subject property from Defendants, including any grant deeds necessary to

15

restore title to the Plaintiff; all documents necessary to release all claims from the Defendants as

16

to their right to administer or service a loan that no longer exists and their successors and assigns

17

and order all Defendants to disclaim and vacate all claims and for an issuance of a writ of

18

possession or restitution to the sheriff or other proper officer of Solano County, State of

19
California.

20
21

2.

Enter an order requiring disgorgement to them of all money allocable to the Plaintiff

22

derived from ill-gotten gains or unlawful collection, together with attorney fees to the extent

23

permitted by law, court costs, expenses and such other and further relief as the Court may deem

24

just and proper.

25

3.

26

Enter an order granting the Plaintiff an Injunction preventing the Defendants from

asserting any claim to title to the Property, the debt, note or deed of trust and requiring them to

27
execute such documentation as may be requested by any lender or title insurance company for
28

44
VOL. 2, Page 114

Case: 19-15926, 08/08/2019, ID: 11391029, DktEntry: 11-2, Page 116 of 202

A62

Case 2:18-cv-02244-JAM-AC Document 21 Filed 02/21/19 Page 45 of 123
1

refinancing or any buyer in the sale of the subject property in which they disclaim all right, title or

2

interest tot eh subject property or the subject loan documents.

3

PRAYER FOR RELIEF AS TO COUNTS II, III, IV, V, VI, VII, VIII, IX

4

WHEREFORE, Plaintiff prays for the following relief:
5
Enter a verdict for the Plaintiff and against all Defendants individually, jointly and

6

7

severally for compensatory damages in excess of $1,000,000, together with expenses, court costs

8

and attorney's fees to the extent allowable by statute, contract or implied contract.

9

2.

10
11

Further, the Plaintiff gives notice of his intent to provide the court with a reasonable

showing of evidence or proffers by the Plaintiff that would provide the basis for recovery of
punitive damages, and to amend their pleadings in accordance with such evidence and proffers to

12

plead the grounds for punitive damages and to demand payment thereof from all Defendants,

13
14
15

individually, jointly and severally on all counts in which money damages are demanded.

PLAINTIFF DEMANDS A TRIAL BY JURY IN THIS ACTION OF ALL ISSUES
TRIABLE BY RIGHT OF JURY TRIAL.

16
17
18

I declare under penalty of perjury under the law of state of California that the forgoing is

19

true and correct to the best of my knowledge. Executed on this 20 February 2019 at Fairfield

20

California.

21

22

Respectfully submitted.

23
24

IQBAL S. RANDHAWA

DATED February 20, 2019

25

26
27

28
45

VOL. 2, Page 115

Case: 19-15926, 08/08/2019, ID: 11391029, DktEntry: 11-2, Page 117 of 202

A63

